<html>
<title> - THE BOSTON MARATHON BOMBINGS, ONE YEAR ON: A LOOK BACK TO LOOK FORWARD</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 THE BOSTON MARATHON BOMBINGS, ONE YEAR ON: A LOOK BACK TO LOOK FORWARD

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2014

                               __________

                           Serial No. 113-64

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
88-783                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California:
  Oral Statement.................................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts................................     8

                               Witnesses

Mr. Edward F. Davis III, Former Commissioner, Boston Police 
  Department, Fellow, John F. Kennedy School of Government, 
  Harvard University:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Edward P. Deveau, Chief of Police, Watertown Police 
  Department:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Jeffrey J. Pugliese, Sergeant, Watertown Police Department:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Mr. Herman ``Dutch'' B. Leonard, Professor of Public Management, 
  John F. Kennedy School of Government, Harvard University:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                                Appendix

Questions From Honorable Susan W. Brooks for Herman ``Dutch'' B. 
  Leonard........................................................    47


 THE BOSTON MARATHON BOMBINGS, ONE YEAR ON: A LOOK BACK TO LOOK FORWARD

                              ----------                              


                        Wednesday, April 9, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:07 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Broun, Meehan, 
Duncan, Chaffetz, Palazzo, Hudson, Brooks, Perry, Sanford, 
Sanchez, Clarke, Richmond, Keating, Payne, Vela, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to continue a series of 
hearings examining the Boston bombings of April 15, 2013.
    Today there will be a memorial service in my home State of 
Texas for the Fort Hood shooting that took place on April 2, 
2014. So before we would continue this proceeding, I would like 
to take a moment of silence to recognize the victims of this 
horrific attack.
    [Moment of silence.]
    Chairman McCaul. I now recognize myself for an opening 
statement.
    This is a powerful and emotional day for the witnesses and 
for me and this committee. It is a time to remember the 
anniversary of the Boston Marathon bombings, and it is a time 
to remember the victims.
    I personally remember walking down Boylston Street with 
Boston Police Commissioner Ed Davis, who is with us here today. 
I remember him pointing out to me the trash cans where the 
bombs went off, injuring 260 innocent people and killing 3, 
including a little 8-year-old boy, in cold blood.
    In the middle of the chaos, we also witnessed exceptional 
bravery. If not for the heroic acts of the first responders and 
Boston citizens who ran towards danger instead of away, many 
more could have died.
    I remember after the attack the marathoners tying their 
shoes together in the hundreds in a memorial out of respect and 
out of dedication.
    I also remember the Watertown police chief, who is with us 
here today as well--and thank you for being here--I remember 
him taking me and Congressman Keating on a tour of their once-
quiet neighborhood and seeing the aftermath of the gunfight to 
take down two of the biggest terrorists since 9/11.
    What happened after that is what heroes are made of. 
Tamerlan threw everything he had at these officers, including 
pipe bombs, rounds of ammunition, and a pressure-cooker IED. 
The Boston bomber was finally subdued after the heroic acts and 
efforts of our local law enforcement, who are with us today as 
well.
    What is not so well-known is that, had it not been for the 
efforts of Commissioner Ed Davis and those of the Watertown 
police force, our Nation could have been further terrorized. 
These terrorists had six more bombs in their car, and they were 
on their way to Times Square. If it wasn't for these heroic 
acts of bravery, New York City could have been hit again.
    We will hear from these brave individuals today for the 
first time before Congress.
    This committee, through its oversight responsibilities, 
conducted a thorough investigation into what happened and what 
went wrong. We found that several flags and warnings were 
missed. We found that Tamerlan was on the radar of the FBI and 
somehow dropped off.
    We found that Tamerlan traveled to Dagestan, known for its 
Chechen terrorists. This is precisely what the Russian letter 
warned our intelligence community and FBI about. He came back 
even more radicalized. We also found that, unfortunately, 
Customs, FBI, and the intelligence community somehow missed it. 
Arrogantly, some U.S. officials said it would not have made a 
difference--it would not have made a difference if they had 
known about his overseas travels.
    We now know that a check of his public social media would 
have shown indicators, such as jihadist video postings. His 
mosque had seen escalating behavior, as well. It likely would 
have been clear that he was becoming more and more of a threat 
to the community.
    Which takes me to my last point. State and local police 
have a strong role in counterterrorism. They know the streets 
better than anybody, and they know the local threats. The 
Boston PD should have been given more information throughout 
the entire process. They must know the terror threats in their 
own backyards--they know those. This process, in my judgment, 
has to change.
    In an effort to do this, 2 weeks ago our committee issued 
our report about the Boston Marathon bombings. Over the course 
of the year, we held two hearings, had numerous briefings and 
engagements, traveled to Boston multiple times, had a 
bipartisan staff delegation travel to Moscow. I personally went 
to Boston and Moscow with Mr. Keating and spoke with officials 
on the ground.
    I want to thank the Democrats for their participation in 
the investigation and the report, and I am pleased that their 
input was reflected in the final report.
    Based on the lessons learned, we issued our findings and 
recommendations to fix some of the systemic problems that led 
to Tamerlan Tsarnaev falling off of our radar. I hope to think, 
in a small way, the recommendations we made in this report can 
make a difference in preventing the tragedy we saw in Boston 
from occurring again in the homeland.
    I am pleased to know and to hear and report that both the 
FBI and DHS are already constructively implementing the 
recommendations of this committee's report, and I commend them 
for that. Let us hope that such a tragic event like this never 
happens again.
    With that, I would now like to recognize the heroes in this 
hearing, in this committee room here today, the Watertown 
officers, who are with us here today, who were directly 
involved in Tamerlan's takedown and being taken off the streets 
once and for all: Sergeant Jeff Pugliese, Sergeant John 
MacLellan, Officer Joseph Reynolds, Officer Miguel Colon, 
Officer Michael Comick, and, of course, Chief Deveau.
    Gentlemen, would you please stand and be recognized?
    [Applause.]
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 9, 2014
    This is a powerful and emotional day for the witnesses, for me, and 
this committee. It's a time to remember the anniversary of the Boston 
Marathon bombings, and it's a time to remember the victims. I, 
personally, remember walking down Boylston Street with Boston Police 
Commissioner Ed Davis, who is with us here today. I remember him 
pointing out to me the trash cans where the bombs went off, injuring 
260 innocent people and killing 3 including a little 8-year-old boy, in 
cold blood.
    In the middle of chaos, we also witnesses exceptional bravery. If 
not for the heroic acts of the first responders and Boston citizens who 
ran towards danger instead of away, many more could have died.
    I remember after the attack, the marathoners tying their shoes 
together in the hundreds in a memorial out of respect and dedication. I 
remember the Watertown Police Chief, who is before us today. I remember 
him taking Congressman Keating and me on a tour of their once-quiet 
neighborhood and seeing the aftermath of the gunfight to take down two 
of the biggest terrorists since 9/11.
    What happened after that is what heroes are made of. Tamerlan threw 
everything he had at these officers including pipe bombs, rounds of 
ammunition, and a pressure cooker IED. The Boston Bomber was finally 
subdued after the heroic acts and efforts of our local law enforcement, 
some of who are with us today.
    What is not so well-known is that had it not been for the efforts 
of Commissioner Ed Davis and his efforts, and those of the Watertown 
police force, our Nation could have been further terrorized. These 
terrorists had six more bombs in their car and were on their way to 
Times Square. If it wasn't for these heroic acts of bravery New York 
City could have been hit again.
    We will hear from these brave individuals today for the first time 
before Congress. This committee, through its oversight 
responsibilities, conducted a thorough investigation into what happened 
and what went wrong.
    We found that several red flags and warnings were missed. We found 
that Tamerlan was on the radar of the FBI and somehow dropped off. We 
found that Tamerlan traveled to Dagestan, known for its Chechen 
terrorists. This is precisely what the Russian letter warned our 
intelligence community and FBI about. He came back even more 
radicalized. We also found that unfortunately Customs, FBI, and the IC 
somehow missed it. Arrogantly, some U.S. officials said ``It would not 
have made a difference'' if they had known about his overseas travel. 
We now know that a check of his public social media would have shown 
indicators such as Jihadists video postings. His Mosque had seen 
escalating behavior as well. It likely would have been clear that he 
was becoming more and more of a threat to the community.
    Which takes me to me to my last point: State and local police have 
a strong role in counterterrorism. They know the streets better than 
anybody and they know the local threats. The Boston Police Department 
should have been given more information throughout the entire process. 
They must know the terror threats in their own backyards. This process 
in my judgment has to change.
    In an effort to do this, 2 weeks ago our committee issued our 
report about the Boston Marathon bombings. Over the course of the year, 
we held two hearings; had numerous briefings and engagements; traveled 
to Boston multiple times; and had a bipartisan staff delegation travel 
to Moscow. I personally went to Boston and Moscow with Mr. Keating and 
spoke with officials on the ground. I want to thank the Democrats for 
their participation in the investigation and the report, and I'm 
pleased that their input was reflected in the final report. Based on 
lessons learned, we issued our findings and recommendations to fix some 
of the systemic problems that led to Tamerlan Tsarnaev falling off of 
our radar.
    I hope to think in a small way the recommendations we made in this 
report can make a difference in preventing the tragedy we saw in Boston 
from occurring again in the homeland. I am pleased to know, to hear, 
and to report that both the FBI and DHS are already constructively 
implementing the recommendations of this committee's report. Let us 
hope that such a tragic event like this never happens again.

    Chairman McCaul. The Chairman now recognizes the acting 
Ranking Member, Ms. Sanchez.
    Ms. Sanchez. I thank the Chairman for holding today's 
hearing.
    I also extend my condolences to the families of the 4 
people killed during last week's shooting at Fort Hood, and 
additional prayers are with the 16 people who were injured 
during that shooting. I do want to recognize the first-
responder community and medical personnel for their incredible 
response to the shooting. As of today, the Joint Terrorism Task 
Force does not consider the shooting an act of terrorism. 
However, the investigation is still on-going.
    I am going to read into the record the comments from our 
Ranking Member, Mr. Thompson of Mississippi, which I concur 
with.
    Incidents like last week's shooting and last year's Boston 
Marathon bombing, the focus of today's hearing, remind us of 
the importance of our first responders. With that being said, I 
again commend the service of our witnesses--former Commissioner 
Davis, Chief Deveau, Sergeant Pugliese. I also thank Professor 
Leonard for recognizing their courageous efforts in his 
research.
    Resilience and response are two of the reasons why almost a 
year ago the Boston metropolitan area--why almost a year from 
ago the Boston metropolitan area remains strong. I wish Mayor 
Walsh, president of the Boston Athletic Association Joann 
Flaminio, and all the runners and volunteers participating in 
the 118th Boston Marathon well as the race commences on the 
21st of April of this year.
    Even though Boston is standing strong, it would be a 
disservice to the community not to take a look back. There are 
still unanswered questions about the history of the Tsarnaev 
brothers, the alleged Boston Marathon bombers, and we owe it to 
the people of Boston and the rest of America to make sure that 
the appropriate officials do a thorough review of that 
situation.
    Last April, the inspectors general of the intelligence 
community, Departments of Homeland Security and Justice, and 
the Central Intelligence Agency announced a joint investigation 
into whether intelligence was properly distributed and acted 
upon in the months and the years before the bombings at the 
Boston Marathon.
    I find it rather unfortunate, however, that the review was 
delayed because of the senseless 16-day Government shutdown in 
October 2013. Partisan disagreements create serious gaps in 
homeland security oversight, and this is just one example of 
the myriad of setbacks that the shutdown yielded.
    Another development since last year is Attorney General 
Holder's January 13 announcement that the United States would 
be seeking the death penalty against Tamerlan* Tsarnaev, the 
alleged Boston Marathon bomber. He was arrested and indicted, 
and I have declared my confidence in his receiving a fair yet 
aggressive prosecution in the United States District Court for 
the Commonwealth of Massachusetts.
---------------------------------------------------------------------------
    * See clarification, p. 33.
---------------------------------------------------------------------------
    Mr. Chairman, as a former Federal prosecutor, you know 
Attorney General Holder's decision to seek the death penalty is 
a game-changer. I am sure you are familiar with the intricacies 
involved in a capital case.
    As I reminded the committee last year, as we fulfill our 
Constitutional oversight responsibilities, we must be careful 
not to jeopardize a Federal prosecution. This applies in both 
the words that we speak to the public as well as the 
publications that stem from this committee.
    Unfortunately, some of the actions that have extended from 
this committee have not been helpful to the Department of 
Justice. On March 26, a Majority staff report, endorsed by a 
minority of the Members of this committee, was released to the 
public. Less than 48 hours after the report's release, 
Tsarnaev's defense team filed a motion in the United States 
District Court citing this report.
    I reemphasize that, as Members of Congress, especially as 
Members of the Homeland Security Committee, we are held to a 
heightened standard. We are trusted with both Classified and 
Unclassified briefings and meetings with the members of the 
intelligence community. Therefore, the words that we speak or 
we publish about alleged terrorists transcend the halls of this 
Congress and are not taken lightly by the public.
    Furthermore, this not only applies to events surrounding 
Boston but also to other events with pending investigations. 
Reaching conclusions before facts are known puts the reputation 
of this committee at peril. Thus, we must exercise discretion 
in our questioning, in our statements about events, suspects, 
and the links to others that may not be in custody.
    But in spite of those limitations, Mr. Chairman, we can 
still use our platform to have a productive discussion about 
the Boston Marathon bombing and act on outstanding matters. For 
example, we can and we should discuss the funding given to the 
first-responder community.
    Last year, at the Committee on Homeland Security's first 
hearing on the Boston Marathon bombings, former Commissioner 
Davis stated that, without grant funding, ``the response would 
have been much less comprehensive than it was.'' Without the 
exercises supported through the Urban Areas Security Initiative 
funding, there would be more people who died in these attacks.
    Professor Leonard's testimony also indicates that this type 
of preparedness is what makes first response effective. Sargent 
Pugliese is also testifying today that local municipal 
governments are not financially equipped to take on the 
increasing burden of these catastrophic attacks like Boston.
    It is time that we not only listen to the first responders 
but that we also take action.
    Not only after last year's hearing but also hearings 
throughout several Congresses, Members have heard about the 
importance of these grant programs and the success stories 
involving them. Accordingly, I urge Members to oppose the 
administration's proposal to shift focus away from supporting 
State and local efforts to develop terrorism-related prevention 
and preparedness capabilities by morphing the Homeland Security 
Grant Program into an all-hazards grant.
    I am not convinced that the administration's underfunded 
grant consolidation proposal would provide sufficient support 
for first responders across America to build and maintain the 
capabilities necessary to respond as effectively as the first 
responders in Boston and Watertown did after the bombings last 
year.
    We learned from 9/11 that it is the local responders that 
are there on the scene. I cannot support any grant reform 
proposal until I am convinced that it would provide the support 
necessary to maintain the terrorism preparedness capabilities 
that we have spent building--building now for over a decade.
    Also, I agree with the Chairman that we cannot ignore that 
information sharing between Federal, State, and local 
authorities needs strengthening. Since September 11, 
information-sharing silos that the 9/11 Commissioners 
recommended be addressed continue to be exposed after tragic 
events. We need to work together to develop ways to fix that 
problem as soon as possible.
    We must also consider the economic cost of terrorism. In 
response to the events of September 11, Congress enacted the 
Terrorism Risk Insurance Act of 2002. That measure increased 
the availability of terrorism risk insurance to at-risk 
American businesses by guaranteeing that the Government would 
share some of the losses with private insurance should a 
terrorist attack occur at a building.
    That act is set to sunset this year. According to the RAND 
Corporation, allowing this act to expire would harm our 
National security. Last year, Mr. Thompson introduced a bill 
that would extend the act and add some needed improvements, and 
I urge my colleagues to cosponsor that legislation.
    Even though it has been almost a year since the bombings, 
there have been some game-changing moments, and some ships are 
still anchored. As we continue to seek answers, I remind us to 
be responsible and to act within our Constitutional boundaries. 
The people of Boston are looking for our leadership on this 
issue.
    I yield back the balance of my time and ask that the full 
statement of Ranking Member Thompson be put into the record, 
Mr. Chairman.
    Chairman McCaul. Without objection, so ordered. I thank the 
Ranking Member.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 9, 2014
    I want to extend condolences to the families of the 4 people killed 
during last week's shooting at Ft. Hood. Additionally, prayers are with 
the 16 people who were injured during the shooting. I want to recognize 
the first responder community and medical personnel for their 
incredible response to the shooting. As of today, the Joint Terrorism 
Task Force does not consider the shooting an act of terrorism. However, 
the investigation is still on-going.
    Incidents like last week's shooting and last year's Boston Marathon 
bombing--the focus of today's hearing--remind us of the importance of 
first responders. With that being said, I again commend the service of 
our witnesses: Former Commissioner Davis, Chief Deveau, and Sergeant 
Pugliese. I also thank Professor Leonard for recognizing their 
courageous efforts in his research.
    Resilience and response are two of the reasons why almost a year 
later the Boston metropolitan area remains strong. Hence, I wish Mayor 
Walsh, president of the Boston Athletic Association, Joann Flamino, and 
all the runners and volunteers participating in the 118th Boston 
Marathon well as the race commences on April 21.
    Even though Boston is standing strong, it would be a disservice to 
the community not to take a look back. There are still unanswered 
questions about the history of Tsarnaev brothers--the alleged Boston 
Marathon bombers. We owe it to the people of Boston and the rest of 
America to make sure that the appropriate officials do a thorough 
review of the situation.
    Last April, the inspectors general of the intelligence community, 
Departments of Homeland Security and Justice and the Central 
Intelligence Agency announced a joint investigation into whether 
intelligence was properly distributed and acted upon in the months and 
years before the bombings at the Boston Marathon. I find it rather 
unfortunate; however, that the review was delayed because of the 
senseless 16-day Government shut-down in October 2013. Partisan 
disagreements create serious gaps in homeland security oversight and 
this is just one example of the myriad of setbacks the shut-down 
yielded.
    Another development since last year is Attorney General Holder's 
January 30 announcement that the United States would be seeking the 
death penalty against Dzhokar Tsarnaev, the alleged Boston Marathon 
bomber. Since Dzhokar Tsarnaev was arrested and indicted, I have 
declared my confidence in his receiving a fair, yet aggressive 
prosecution in the United States District Court for the Commonwealth of 
Massachusetts. Mr. Chairman, as a former Federal prosecutor, you know 
Attorney General Holder's decision to seek the death penalty against 
Tsarnaev was a game-changer. I am sure you are familiar with the 
intricacies involved in a capital case. As I reminded the committee 
last year, as we fulfill our Constitutional oversight responsibilities, 
we must be careful not to jeopardize a Federal prosecution--this 
applies to both the words we speak to the public as well as the 
publications that stem from our research.
    Unfortunately, some of the actions that have extended from by this 
committee have not been helpful to the Department of Justice. On March 
26, a Majority Staff Report endorsed by a minority of Members of this 
committee was released to the public. Less than 48 hours after the 
report's release, Dzohkar Tsarnaev's defense team filed a motion in the 
United States District Court citing this report. I reemphasize that as 
Members of Congress, especially Members of the Homeland Security 
Committee, we are held to a heightened standard. We are trusted to have 
both Classified and Unclassified briefings and meetings with the 
members of intelligence community.
    Therefore, the words we speak or publish about an alleged terrorist 
transcend the halls of Congress and are not taken lightly by the 
public. Furthermore, this not only applies to events surrounding Boston 
but also to other events with pending investigation. Reaching 
conclusions before facts are known puts the reputation of this 
committee in peril. Thus, we must exercise discretion in our 
questioning and our statements about events, suspects, and the links to 
others that may not be in custody.
    In spite of these limitations, Mr. Chairman, we can still use our 
platform to have a productive discussion about the Boston Marathon 
bombing and act on outstanding matters. For instance, we can and should 
discuss the funding given to the first-responder community.
    Last year, at the Committee on Homeland Security's first hearing on 
the Boston Marathon bombings, former Commissioner Davis stated that 
without grant funding, the ``response would have been much less 
comprehensive than it was'' and without the exercises supported through 
Urban Area Security Initiative funding, ``there would be more people 
who had died in these attacks.'' Professor Leonard's testimony also 
indicates that this type of preparedness is what made the first 
response effective. Sergeant Pugliese is also testifying today that 
local municipal governments are not financially equipped to take on the 
increasing burden of catastrophic attacks like Boston. It is time that 
we not only listen to the first responders but also take action.
    Not only after last year's hearing, but also hearings throughout 
several Congresses, Members have heard about the importance of these 
grant programs and success stories involving them. Accordingly, I urge 
Members to oppose the administration's proposal to shift focus away 
from supporting State and local efforts to develop terrorism-related 
prevention and preparedness capabilities by morphing the Homeland 
Security Grant Program into an all hazards grant. I am not convinced 
that the administration's underfunded grant consolidation proposal 
would provide sufficient support for first responders across America to 
build and maintain the capabilities necessary to respond as effectively 
as the first responders in Boston and Watertown did after the bombings 
last year. I cannot support any grant reform proposal until I am 
convinced that it would provide support necessary to maintain the 
terrorism-preparedness capabilities we have spent over a decade 
building.
    Also, I agree with the Chairman that we cannot ignore that 
information sharing between Federal, State, and local authorities needs 
strengthening. Since September 11, information-sharing silos that the 
9/11 Commissioners recommended be addressed continue to be exposed 
after tragic events. We need to work together to develop ways to fix 
this problem post-haste.
    We must also consider the economic costs of terrorism. In response 
to the events of September 11, 2001, Congress enacted the Terrorism 
Risk Insurance Act of 2002. That measure increased the availability of 
terrorism risk insurance to at-risk American businesses by guaranteeing 
that the Government would share some of the losses with private 
insurers should a terrorist attack occur. That act is set to sunset 
this year. According to the RAND corporation, allowing this Act to 
expire would harm National security. Last year, I introduced a bill 
that would extend the Act and add some needed improvements. I urge my 
colleagues to cosponsor this legislation.
    Even though it has been almost a year since the bombings, there 
have been some game-changing moments, and some ships are still 
anchored. As we continue to seek answers, I remind us to be responsible 
and act within our Constitutional boundaries. The people of Boston are 
looking for our leadership on this issue.

    Chairman McCaul. As a former Federal prosecutor, I 
understand legal standards very well and would do nothing to 
jeopardize the prosecution.
    I also, as a Member of Congress, understand our 
responsibilities and this committee's responsibilities of 
oversight under the Constitution of the United States. As 
recently quoted in the Boston Globe, ``This shouldn't be about 
Democrats and Republicans. If you can't put that stuff behind 
you on an issue like this, then I don't know when you can.'' I 
couldn't agree more with the Boston Globe on that statement.
    With that, the Chairman now recognizes the gentleman from 
Massachusetts, who has had more impact out of this tragedy than 
any other Member of this committee, Mr. Keating, to introduce 
today's witnesses.
    Mr. Keating. Thank you, Mr. Chairman.
    By way of introduction, I just want to realize, have us all 
realize that it is almost a year to the day of April 15, when 
we were all shocked, not just in Massachusetts but around the 
country, at the news that the lives of four young individuals 
were taken and hundreds more were injured in the Boston 
Marathon.
    If I could, in this introductory period, Mr. Chairman, I 
would like us to take a moment to remember and honor the lives 
of Krystle Campbell, 29; Sean Collier, 26; Lingzi Lu, 23; and 
Martin Richard, 8.
    [Moment of silence.]
    Mr. Keating. There is no doubt that Boston's handling of 
the marathon attack will serve as a model for cities around the 
world on how to respond to mass homeland security incidents. 
For this reason, it is important to look back and analyze the 
steps taken before, during, and after the tragedy.
    We are honored today to have before this committee public 
safety officials from Boston and Watertown whose actions 
directly impeded further damage and loss of lives during the 
attack and in the days following. In that regard, all of our 
witnesses today can provide unique perspective on the best 
methods to increase our Nation's resiliency, adaptability, and 
transparency within the homeland security realm.
    Our first witness, former Boston Police Commissioner Edward 
Davis, is currently with the John F. Kennedy School of 
Government at Harvard University. Mr. Davis was appointed by 
another great leader during this period, former Boston Mayor 
Thomas Menino. In this role, Commissioner Davis led the Boston 
Police Department's response to the Boston Marathon bombing on 
April 15.
    The heroic actions and quick thinking of the men and women 
under Mr. Davis' leadership, as well as that of the 
Massachusetts National Guard, Boston Fire Department, EMS 
services, medical personnel, and, indeed, civilians, led to the 
survival of 17 critically injured civilians.
    I have known Mr. Davis throughout his 34 years of law 
enforcement. He served on the Lowell Police Department, was 
named superintendent to that police department in 1994. During 
this period, he was recognized for reducing the crime rate in 
Lowell quicker than any other superintendent in the United 
States of America in cities of over 100,000 residents.
    Commissioner, thank you for your service and your service 
to the city of Boston, the Commonwealth, and to our country. It 
is an honor to have you with us here today, and we look forward 
to your testimony.
    We also have joining the former commissioner the chief of 
police at the Watertown Police Department, Mr. Edward Deveau. 
Chief Deveau sits on the executive board of the Massachusetts 
Chiefs of Police Association and played a crucial role during 
the manhunt for Dzhokhar Tsarnaev. His leadership made National 
headlines when five of his officers found themselves in a 
battle that involved both gunfire and homemade explosives on a 
small street in Watertown.
    Chief Deveau, it is my pleasure to see you again. We are 
all grateful for your service and for taking the time out of 
your busy marathon training to testify here today.
    Finally, Sergeant Jeffrey Pugliese is the second generation 
of a Watertown police officer, and he also served in the U.S. 
Army. He was born and raised in Watertown.
    Having been promoted to sergeant in 1993, he was on the 
night shift during the early hours of April 19, 2013, when he 
came to the assistance of his fellow officers on Laurel Street. 
After a grueling exchange of fire, he came within 6 feet of 
Tamerlan Tsarnaev and eventually chased the subject and tackled 
him to the ground, leaving him time to rush those hurt in the 
scene to the hospital.
    Members of this committee had the opportunity to visit the 
scene and were able to see just amazing signs of heroism in the 
impressions that the bombs and bullets made throughout that 
street.
    Sergeant, thank you for your incredible service.
    Even though I am not introducing him, I want to thank 
Professor Dutch Leonard from Harvard University.
    If I could, Mr. Chairman, for the record, ask unanimous 
consent that the report that Professor Leonard is going to talk 
about today be submitted in the record.
    Chairman McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Keating. I yield back.
    Chairman McCaul. Professor Leonard, thank you for being 
here today, as well. The Kennedy School, I guess I am somewhat 
of an alumni, being in the fellows program. My best to the 
faculty and staff. I know you produced an excellent report and 
analysis of the Boston bombing, and I look forward to reading 
that and sharing my thoughts with you. Thanks so much for being 
here today.
    Full written statements of the witnesses will appear in the 
record.
    The Chairman now recognizes Commissioner Davis for 5 
minutes for an opening statement.

 STATEMENT OF EDWARD F. DAVIS III, FORMER COMMISSIONER, BOSTON 
     POLICE DEPARTMENT, FELLOW, JOHN F. KENNEDY SCHOOL OF 
                 GOVERNMENT, HARVARD UNIVERSITY

    Mr. Davis. Thank you, Mr. Chairman, Ranking Member Thomas, 
distinguished Members of the committee. Thank you for inviting 
me before you today to once again discuss the events of April 
15, 2013, when the Boston Marathon and our Nation came under 
attack by a pair of extremist brothers.
    Chairman McCaul. Commissioner, I don't believe your mike is 
on.
    Mr. Davis. Sorry about that.
    I came before you last May as commissioner of the Boston 
Police Department to offer my insights into the information 
sharing that occurred before and during the events of last 
April.
    I also came to you on behalf of the Boston community and 
specifically four people whose voices could no longer be heard 
because of the attacks of these cowards. Once again, before I 
begin my remarks, I ask you to remember the lives of Martin 
Richard, Krystle Campbell, Lu Lingzi, and MIT Police Officer 
Sean Collier.
    Let my comments today reflect that none of us should ever 
forget four lives that were senselessly cut too short by the 
events of that week.
    Next Tuesday afternoon at 2:50 p.m. will mark the 1-year 
anniversary since two pressure-cooker bombs were detonated on 
Boylston Street, on a historic stretch of a Boston street that 
leads to one of the most inspirational sites an athlete can 
view: The finish line of the Boston Marathon.
    A lot has changed in that 1 year. For the hundreds of 
victims wounded in the attacks, life has been altered. Yet, on 
a daily basis, we continue to see and hear the inspirational 
stories of those victims--stories like that of Adrianne Haslet-
Davis of Boston, a professional dancer who returned to the 
stage last month despite losing part of her left leg in one of 
the explosions; or Jeff Bauman of Chelmsford. The iconic image 
of him being wheeled away from the devastation by a good 
Samaritan is emblazoned in our minds. He just announced he is 
engaged and is going to be a new father soon. Or Martin 
Richard's sister, Jane, whose recovery has inspired a team of 
runners to run on her behalf in this year's marathon. Or the 
dozens of nurses and first responders who will be undertaking 
their first marathon ever next week in honor of the victims 
whose lives they helped save.
    There are literally hundreds more stories that I could 
share with you. I just want to make sure that none of them are 
lost to time as we continue to examine the events that led up 
to the attacks and the actions that unfolded in the days and 
weeks afterwards.
    I also want to speak on behalf of a community, not just the 
Boston community or even simply metropolitan Boston, but the 
greater community at large. In the year since, as I have 
traveled across this country talking about the lessons learned 
from this tragedy, I have come to realize that the community 
that rallied behind the ``Boston Strong'' mantra numbers in the 
millions, because that is how aggrieved our Nation felt after 
these attacks on our freedom and the innocents caught in the 
path of these explosions.
    In the weeks after last April's attack, many questions were 
raised about who knew what when and what kind of information 
was being shared between law enforcement agencies. I am here to 
tell you that throughout the past year the level of interagency 
cooperation and information sharing that has occurred between 
local, State, and Federal law enforcement agencies has been 
critical to ensuring that we found ourselves answers to the 
many questions that have been posed.
    Within the first few minutes of hearing about the 
explosions on Boylston Street, my first phone call was to my 
friend and colleague, Rick DesLauriers, at the FBI. He and I 
worked side-by-side throughout the ensuing week, and I consider 
him a staunch friend and ally. He offered all of the services 
of the FBI and other agencies to make sure that we not only 
apprehended the terrorists responsible for the crime but also 
to ensure that our interagency collaboration affords all of our 
agencies the critical amount of information sharing needed for 
our organizations to operate at peak efficiency.
    What all of us learned that week and in the ensuing 12 
months, though, is just how big our community is beyond the 
partnerships within the levels of government. Our law 
enforcement community is obvious. With me today are some of my 
colleagues from the neighboring Watertown Police Department--
and you will hear from those heroes in a minute--the community 
where the manhunt came to an end and a community that found its 
neighborhoods under siege like never before in our country's 
history.
    Make no mistake about this: Boston Police, Watertown 
Police, none of our agencies could have enjoyed the success we 
achieved without the involvement of a much larger community, 
one that felt personally victimized by the attacks. That is the 
community which has come to be known as ``Boston Strong.''
    In the past 12 months, ``Boston Strong'' has been used as a 
rallying cry for an indomitable spirit, a sign of resilience 
and perseverance. Our hometown baseball team, the Red Sox, 
showed its tenacity and found inspiration from its message to 
win a World Series. It came to personify our indefatigable 
patriotism and commitment to neighbor helping neighbor. In New 
England, we didn't just see ``Boston Strong'' as a cliched 
hashtag on Twitter; we see it as a proclamation that we stand 
together, united in the face of previously unimaginable 
atrocities and determined to hold fast to our ideals and basic 
tenets of freedom.
    ``Boston Strong'' became an exclamation by a community that 
wants the world to know that it can rally in the face of 
adversity and, armed with the necessary information, can work 
with its government partners to achieve a safe and desired 
outcome to a horrible and senseless act of violence.
    When he came to our city a few days after the attacks, 
President Obama told the world that Boston will run again, and 
he was right. We run to support the dreams and personal 
aspirations of every man and woman who will be lacing up their 
sneakers to complete the grueling course. We run for the ideals 
that this kind of event brings our community together to 
celebrate everything that is great about our city, our State, 
and our Nation. We run for the men and women and children who 
can't be there this year: Krystle Campbell, Lu Lingzi, Martin 
Richard, and Officer Sean Collier. All of us--Boston, 
Massachusetts; New England; the United States--we run together.
    Thank you.
    [The prepared statement of Mr. Davis follows:]
               Prepared Statement of Edward F. Davis, III
                             April 9, 2014
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, thank you for inviting me back before you today to once 
again discuss the events of April 15, 2013, when the Boston Marathon 
and our Nation came under attack by a pair of extremist brothers bent 
on challenging our freedom.
    I came before you last May as commissioner of the Boston Police 
Department to offer my insights into the information sharing that 
occurred before and during the events of last April. I also came to you 
on behalf of the Boston community, and specifically, four people whose 
voices could no longer be heard because of the attacks of these 
cowards.
    Once again, before I begin my remarks, I ask that you remember the 
lives of Martin Richard, Krystle Campbell, Lu Lingzi, and MIT Police 
Officer Sean Collier. Let my comments today reflect that none of us 
should ever forget four lives that were senselessly cut too short by 
the events of that week.
    Next Tuesday afternoon at 2:50 p.m. we will mark the 1-year 
anniversary since two pressure-cooker bombs were detonated on Boylston 
Street, on a historic stretch of a Boston Street that leads to one of 
the most inspirational sights an athlete can view--the finish line of 
the Boston Marathon.
    A lot has changed in that 1 year. For the hundreds of victims 
wounded in the attacks, life has been altered. Yet on a daily basis, we 
continue to see and hear the inspirational stories of those victims--
stories like that of Adrianne Haslet-Davis of Boston, a professional 
dancer who returned to the stage last month despite losing part of her 
left leg in one of the explosions. Or Jeff Bauman of Chelmsford--the 
iconic image of him being wheeled away from the devastation by a Good 
Samaritan is emblazoned in our minds. He just announced he's engaged 
and is going to be a new father soon. Or Martin Richard's sister Jane, 
whose recovery has inspired a team of runners to run on her behalf in 
this year's marathon. Or the dozens of nurses and first responders who 
will be undertaking their first marathon ever next week, in honor of 
the victims whose lives they helped save. There are literally hundreds 
more stories that I could share with you. I just want to make sure none 
of them are lost to time, as we continue to examine the events that led 
up to the attacks and the actions that unfolded in the days and weeks 
afterwards.
    I also want to speak on behalf of a community. Not just a Boston 
community, or even simply Metropolitan Boston, but the greater 
community at large. In the year since, as I have travelled across this 
country talking about the lessons learned from this tragedy, I have 
come to realize the community that rallied behind the Boston Strong 
mantra numbers in the millions, because that is how aggrieved our 
Nation felt after these attacks on our freedoms and the innocents 
caught in the path of those explosions.
    In the weeks after last April's attack, many questions were raised 
about who knew what when, and what kind of information was being shared 
between law enforcement agencies.
    I am here to tell you that throughout this past year, the level of 
inter-agency cooperation and information sharing that has occurred 
between local, State, and Federal law enforcement agencies has been 
critical to ensuring that we have found answers to as many questions as 
we could pose.
    Within the first few minutes of hearing about the explosions on 
Boylston Street, my first phone call was to my friend and colleague 
Rick Deslauriers at the FBI. He and I worked side-by-side throughout 
the ensuing week, and I consider him a staunch friend and ally. He 
offered all of the services of the FBI and other agencies to make sure 
that we not only apprehended the terrorists responsible for this crime, 
but also to ensure that our inter-agency collaboration affords all of 
our agencies the critical amount of information sharing needed for our 
organizations to operate at peak efficiency.
    What all of us learned that week and in the ensuing 12 months, 
though, is just how big our community is beyond the partnerships within 
the levels of government. Our law enforcement community is obvious. 
With me today are some of my colleagues from the neighboring Watertown 
Police Department, the community where the manhunt came to an end and a 
community that found its neighborhoods under siege like never before in 
our country's history.
    Make no mistake about this--Boston Police, Watertown police--none 
of our agencies could have enjoyed the successes we achieved without 
the involvement of a much larger community, one that felt personally 
victimized by the attacks. That is the community which has come to be 
known as Boston Strong.
    In the past 12 months, Boston Strong has been used a rallying cry 
for an indomitable spirit, a sign of resilience and perseverance. Our 
hometown baseball team, the Red Sox, showed its tenacity and found 
inspiration from its message to win a World Series. It came to 
personify our indefatigable patriotism and commitment to neighbor 
helping neighbor. In New England, we don't just see Boston Strong as a 
cliched hashtag on twitter, as see it as a proclamation that we stand 
together, united in the face of previously-unimaginable atrocity, and 
determined to hold fast to our ideals and basic tenets of freedom. 
Boston Strong became an exclamation by a community that wants the world 
to know that it can rally in the face of adversity and, armed with the 
necessary information, can work with its governmental partners to 
achieve a safe and desired outcome to a horrible and senseless act of 
violence.
    Anyone who has ever visited Boston in the spring, or spent any time 
there, you know that the Boston Marathon is the People's Race. This is 
a 26.2-mile line that starts in Hopkinton, winds through Ashland, 
Framingham, Natick, Wellesley, Newton, and Brookline before ending in 
the heart of downtown Boston. And it occurs, appropriately enough, on 
Patriots' Day, a State holiday in Massachusetts that helps recognize 
the birth of the American Revolution, but has also come to embody our 
patriotic love for our community and our country. In New England, you 
either watch the marathon, you know somebody who runs it, or you run in 
it yourself. I had close friends and colleagues running in last year's 
race, many of whom were pressed into immediate service by the 
explosions. The marathon is part of our fiber, and an attack on the 
institution is an attack on our community as a whole.
    This is the same community who waited anxiously as the largest 
manhunt in New England history played out over 4 days. When law 
enforcement decided to release the photos of the two suspects, we knew 
the dissemination of information into the hands of the public would be 
one of the most effective ways we could apprehend the individuals we 
wanted.
    As we saw it play out on Thursday and Friday of that week, when the 
suspects took to the run, and began endangering innocents in other 
communities, we had to take the unprecedented action of asking more 
than half a million people to shelter in place while we search for 
these two men, who were throwing bombs at the police officers trying to 
catch them.
    And for that historic Friday after the marathon, when we asked our 
communities to work with us and remain at home to keep the streets 
clear so we could do our job, they listened.
    They listened because they shared a common goal, of wanting us to 
catch the men responsible. They listened because they trusted law 
enforcement, and by extension, their Government, to take care of them.
    As anyone who has followed my career with the Boston and Lowell 
Police Departments knows, I believe in community policing, and the 
critical role that our residents play in helping to keep a community 
safe. It was relationships built before the marathon attacks that 
allowed us to implement such drastic measures, and those relationships 
only grew stronger when our communities saw the professional responses 
from their police agencies.
    Sir Robert Peel was the Conservative Prime Minister of the United 
Kingdom in the early 1800s, and helped establish some of the modern 
concepts of our Nation's police forces.
    It was Peel who said ``The police are the public and the public are 
the police--the police being only members of the public who are paid to 
give full-time attention duties which are incumbent on every citizen in 
the interests of community welfare and existence.''
    Nearly 2 centuries later, that basic tenet still holds true today.
    Together, we solve problems.
    In the case of the multi-agency responses required in the wake of 
the attacks, yes, we did identify some areas we could improve upon, 
especially in terms of information sharing. But I remain supremely 
proud of the work done not just by the first officers, firefighters, or 
EMS workers who responded to the attacks, but also by the sea of 
yellow-jacketed Boston Marathon volunteers, and the runners who stopped 
short of their 26.2-mile goal to help innocent people suffering on the 
sidewalks along Boylston Street.
    Beyond the successes we have achieved with the cooperation of the 
media agencies that cover our agencies, we also learned quickly what a 
valuable information tool our social media networks could be to us as 
that week unfolded last April. Systems that remain in place a year 
later, and allow our agencies to more effectively and more rapidly 
communication directly with the men and women we are sworn to serve and 
protect.
    Next Monday, an historic number of runners will take to the 
pavement again to run in the fabled Boston Marathon, and next Monday, 
they will be protected by an historic amount of law enforcement 
personnel from among a wide swath of agencies, all of whom have been 
meeting on a regular basis for months to ensure the safety of everyone 
who will be running and watching the event. We are all working 
together.
    When he came to our city a few days after the attacks, President 
Obama told the world that Boston will run again, and he was right.
    We run to support the dreams and personal aspirations of every man 
and woman who will be lacing up their sneakers to complete the grueling 
course.
    We run for the ideals that this kind of event brings our community 
together to celebrate everything that is great about our city, our 
State, and our Nation.
    And we run for the men, women, and children who can't be there this 
year--Krystle Campbell, Lu Lingzi, Martin Richard, and Officer Sean 
Collier.
    All of us--Boston, Massachusetts, New England, the United States--
we run together.

    Chairman McCaul. Thank you, Commissioner.
    The Chairman now recognizes Chief Deveau for an opening 
statement.

   STATEMENT OF EDWARD P. DEVEAU, CHIEF OF POLICE, WATERTOWN 
                       POLICE DEPARTMENT

    Chief Deveau. Chairman McCaul, it is an honor to come 
before you and your committee. Thank you for the privilege of 
doing that.
    I am extremely proud to be here today representing the men 
and women of the Watertown Police Department. Our goal has 
always been to be the best police department in Massachusetts.
    Mr. Chairman, I had the privilege of meeting you and other 
Members of your distinguished committee when you traveled to 
Boston and Watertown. I want to thank you and your Members who 
took the time to learn about how the Watertown Police 
Department and the Watertown community responded to the events 
of that day.
    Before I speak about the actions of the Watertown Police 
Department, I would like to give you some background on the 
events of last year.
    Patriots' Day is a special day in Boston. It is my favorite 
weekend of the year. Businesses and schools are closed in 
Massachusetts for most people. Spectators line the 26 miles of 
the Boston Marathon route from Hopkinton to Boston, cheering on 
the elite runners but also the regular people who run--many of 
them run for charities. The Boston Red Sox play at 11:00 a.m., 
and, after the game, all the fans walk down to Kenmore Square 
and watch the final mile or 2 of the marathon.
    You haven't lived in Boston very long if you haven't been a 
spectator, a volunteer, or a runner. This year, I will run with 
12 of my officers. It is going to be an emotional day for my 
officers as we run that route and cross the finish line on 
Boylston Street.
    The Boston Marathon will be held in less than 2 weeks, and 
more people than ever want to be part of it. They want to come 
together to celebrate and remember those who died and those who 
were injured in last year's explosions. They want to remember 
Officer Sean Collier of the MIT Police Department, who was 
ambushed and killed before the two brothers headed to 
Watertown.
    We have all seen what occurred at the finish line of the 
marathon on April 19, and Commissioner Davis has spoken about 
that and how well and impressive his department responded that 
day.
    I am here today to talk about the events that occurred in 
Watertown in the early morning hours of April 19. That 
seemingly quiet overnight shift suddenly turned into a war 
zone. For the first time in America, police officers were 
attacked with guns and bombs, and it happened on a quiet 
backstreet of my community. Those two brothers were trying kill 
my police officers and had plans to kill and injure more 
innocent people.
    The handful of Watertown officers on duty that night acted 
heroically and defended Watertown without regard for their own 
personal safety. They displayed courage and bravery as they 
stubbornly defended our community. Just as in Boston, my 
officers were at their very best when confronted with the 
biggest challenge of their careers. Their split-second 
decisions and actions went far beyond their academy training, 
but I can assure you, Mr. Chairman, it will now be taught in 
academies across the country.
    It has been said before but, as their police chief, I want 
to state it again: The actions of my officers saved lives here 
in Boston and in New York City.
    I want to introduce those officers, and you have already 
done that, Mr. Chairman, but, again, I would like to point out 
Officer Joe Reynolds, who was the first officer to confront 
those two brothers. Had no idea who he was up against. When we 
got notified in Watertown, we didn't know it was related to the 
Boston bombings, we didn't know it was related to Sean Collier. 
Joe stopped that car and was immediately shot on.
    John MacLellan, who is sitting behind him, was the next 
officer there to come onto that street. Got a round right 
through his windshield, glass in his face, and the bullet went 
right by his ear. And those two guys continued to fight on that 
backstreet of Watertown.
    Miguel Colon and Mike Comick showed up shortly after that. 
When Officer Colon showed up, he tried to put a spotlight down 
the street, and it was immediately shot out. He had trouble 
even getting out of his cruiser to help.
    You are going to hear from Sergeant Pugliese and all the 
heroic things he did.
    Mr. Chairman, during these trying days last April, two 
individuals attempted to strike fear and take down a city. They 
attempted to terrorize us all. In the end, they accomplished 
nothing. They will never know what it is--when America gets 
knocked down, we pick ourselves up and become even stronger. We 
will not be intimidated.
    Watertown is stronger, Boston is stronger, and, in my 
opinion, the entire country is united and stronger. The 
strength and resilience and even defiance is what made Boston 
strong. I know if an attack occurs in another city within our 
country, they will respond in a similar way.
    The Watertown police officers on duty that night stopped 
these evil brothers from leaving with a carful of weapons to 
carry out their deadly plan. In the following 18 hours, our 
entire department of 65 officers was tested and worked around 
the clock to keep our community safe. We received unprecedented 
support from surrounding police departments and Federal 
agencies. As a result, the second Boston bombing suspect was 
finally captured.
    I want to thank the residents of Watertown for their 
patience and cooperation that day and for their continued 
support. It truly took an entire community.
    Mr. Chairman, when I began my comments today, I mentioned 
our goal was to be the best police department in the State, and 
I am not sure if we have reached that, but I can tell you one 
thing. For 8\1/2\ minutes, we were the best damn police 
department in the world.
    Mr. Chairman, I conclude my remarks, and I am happy to 
answer any questions you and your committee may have. Thank 
you.
    [The prepared statement of Chief Deveau follows:]
                 Prepared Statement of Edward P. Deveau
    Chairman McCaul it is an honor to come before the U.S. House of 
Representatives Committee on Homeland Security.
    I am extremely proud to be here today representing the men and 
women of the Watertown, Massachusetts Police Department. Our goal has 
always been to be the best police department in the State of 
Massachusetts.
    Mr. Chairman, I had the privilege of meeting you and the other 
Members of your distinguished committee when you traveled to Boston and 
Watertown. I want to thank you and your Members who took the time to 
learn more about how the Watertown Police Department and the Watertown 
community responded to the events of last April.
    Before I speak about the actions of the Watertown Police Department 
I would like to give you some background on the events of last year:
    Patriot's Day is a special day in Boston and my favorite weekend of 
the year. Businesses and schools are closed in Massachusetts so most 
people have the day off. Spectators line the 26 miles of the Boston 
Marathon from Hopkinton to Boston cheering on elite runners from all 
around the world, and the regular people, including so many that run 
for charities.
    The Boston Red Sox play at 11:00 a.m. and after the game all the 
fans walk down to Kenmore Square to watch the final mile or 2 of the 
marathon. You haven't lived in Boston very long if you haven't been a 
spectator, volunteer, or a runner. This year I will run with 12 of my 
officers, it will be an emotional moment when we cross the finish line 
on Boylston Street.
    The Boston Marathon will be held in less than 2 weeks, and more 
people than ever want to be a part of it. They want to come together to 
celebrate and remember those who died and those who were injured in 
last year's explosions. They want to remember Officer Sean Collier of 
the MIT Police Department who was ambushed and killed before the two 
brothers headed to Watertown.
    We have all seen what occurred at the finish line of the Boston 
Marathon on April 15 and Commissioner Ed Davis will speak about those 
tragic events and the Boston Police Department's impressive response 
that day.
    I am here today to talk about the events that occurred in Watertown 
in the early morning hours of April 19. That seemingly quiet overnight 
shift suddenly turned into a war zone. For the first time in America, 
police officers were attacked with guns and bombs and it happened on a 
quiet backstreet in my community. Those two brothers were trying to 
kill my police officers and had plans to kill and injure more innocent 
people.
    The handful of Watertown officers on duty that night acted 
heroically and defended Watertown without regard for their own personal 
safety. They displayed courage and bravery as they stubbornly defended 
our community. Just as in Boston, my officers were at their very best 
when confronted with the biggest challenge of their careers. Their 
split-second decisions and actions went far beyond their police academy 
training, but I can ensure you it will now be taught in police 
academies across the country. It has been said before Mr. Chairman, but 
as their police chief I want to state it again, the actions my officers 
took saved many more people from being killed and injured.
    I want to introduce the officers that have accompanied Sgt. 
Pugliese and myself here today. Each of these officers played a key 
role in that historic gun battle on Laurel Street.
    Mr. Chairman, during those trying day's last April two individuals 
attempted to strike fear and take down a city. They attempted to 
terrorize us all. In the end they accomplished nothing. What they will 
never know is that when America gets knocked down we pick ourselves up 
and become even stronger. We will not be intimidated. Watertown is 
stronger, Boston is stronger, and in my opinion the entire country is 
more united and stronger. The strength, resilience, and defiance is 
what made Boston Strong and I know if an attack occurs in any city 
within our country they will respond in a similar way.
    The Watertown police officers on duty that night stopped these 
terrorists from leaving with their car full of weapons to carry out 
their next deadly plan. In the following 18 hours our entire department 
of 65 officers was tested and worked around the clock to keep our 
community safe. We received unprecedented support from surrounding 
police departments and Federal agencies. As a result the second Boston 
Marathon bombing suspect was finally captured.
    I want to thank the residents of Watertown for their patience and 
cooperation that day and for their continuing support. It truly took an 
entire community.
    Mr. Chairman, when I began my comments today I mentioned our goal 
was to be the best police department in our State and I am not sure if 
we have accomplished that, but what I do know is that for 8\1/2\ 
minutes on a back street in Watertown we were the best police 
department in the world.
    Mr. Chairman, I conclude my remarks and I am happy to try and 
answer any questions your committee may have. Thank you.

    Chairman McCaul. Thank you, Chief, for that compelling 
testimony. You are right, for 8\1/2\ minutes you were the best 
police department in the world.
    With that, the Chairman now recognizes Sergeant Pugliese 
for his testimony.

 STATEMENT OF JEFFREY J. PUGLIESE, SERGEANT, WATERTOWN POLICE 
                           DEPARTMENT

    Sergeant Pugliese. Good morning. Thank you for inviting me 
to speak here this morning.
    A little background on myself. I have been a police officer 
for 34 years in the Watertown Police Department.
    Chairman McCaul. Is the mike on? Can the clerks help with 
the microphones at the witness table?
    Sergeant Pugliese. Is that better?
    Background on myself. Been a police officer for 34 years in 
the town of Watertown. Prior to that, I served in the U.S. Army 
from 1974 through 1978 in the military police assigned to 
Berlin, Germany, in the Berlin Brigade.
    What happened that night is, it was just after midnight. I 
had finished my work shift when I heard a radio broadcast that 
officers from my agency were following an alleged carjacked 
vehicle. I knew that the current shift had four patrol officers 
and a patrol supervisor on the street that night, and so I 
thought I would head up to assist the officers in the event 
that it became a pursuit or a foot pursuit or any assistance 
was needed.
    While en route to the area, I heard another broadcast that 
the officers were now taking gunfire from the occupants of the 
alleged carjacked vehicle and they were requesting assistance.
    When I arrived on the scene, I heard gunfire. I exited my 
vehicle, and within moments I heard an explosion. I advanced to 
the area where the other officers were taking cover and 
returning gunfire.
    The suspects were eventually taken into custody. I am not 
really at liberty to go into minute detail into the incident, 
as one of the suspects is still awaiting trial, but I will 
endeavor to answer any questions you may have.
    I would like to make note that, in today's ever-changing 
environment of violence, local and municipal governments are 
not financially equipped to take on the increasing burden of 
such hostile actions.
    In closing, I would like to say that all of the officers in 
the Watertown Police Department, those officers that were there 
that night, they are ordinary guys who were put in an 
extraordinary situation and performed extraordinarily well.
    Once again, thank you for inviting me to speak at this 
hearing.
    [The prepared statement of Sergeant Pugliese follows:]
               Prepared Statement of Jeffrey J. Pugliese
                             April 9, 2014
    Good morning, thank you for inviting me to speak here this morning. 
My name is Jeffrey J. Pugliese, I'm a police sergeant with the 
Watertown Massachusetts Police Department. I'm a 34-year veteran of the 
Department. In addition to my duties as a patrol supervisor, I have 
been a department firearms instructor for over 29 years. I am also a 
U.S. Army Veteran (1974-1978), serving in the Berlin, Germany as a 
military police officer assigned to the Berlin Brigade.
    I am here to discuss the events of the early morning hours of April 
19, 2013.
    It was just after midnight and I had just finished my work shift 
when I heard a radio broadcast that officers from my agency were 
following an alleged carjacked vehicle. I knew the current shift had 
only four patrol officers and a patrol sergeant working, I decided to 
drive in that direction in the event any additional assistance would be 
needed by the officers.
    While en route to the area, I heard another radio broadcast that 
officers were now taking gun fire from the occupants of the alleged 
carjacked vehicle and they were requesting assistance.
    On arrival at the scene, I heard gun fire, I exited my vehicle and 
within moments I heard an explosion.
    I advanced to the area where other officers were taking cover and 
returning gunfire. The suspects were eventually taken into custody.
    While I am not at liberty to go into minute details as the incident 
is still awaiting trial of one of the suspects, I will endeavor to 
answer any questions you may have.
    I think it should be noted that in today's ever-changing 
environment of violence, local municipal governments are not 
financially equipped to take on the increasing burden of such hostile 
actions.
    In closing, I would like to say that all of the officers involved 
in this incident are ordinary men who were put into an extraordinary 
situation and performed extraordinarily well.
    Once again, thank you for inviting me to speak here this morning.

    Chairman McCaul. Thank you, Sergeant. Thanks for your act 
of heroism, taking down the biggest terrorists since 9/11. We 
appreciate what you did.
    The Chairman now recognizes Professor Leonard for 5 
minutes.

 STATEMENT OF HERMAN ``DUTCH'' B. LEONARD, PROFESSOR OF PUBLIC 
   MANAGEMENT, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
                           UNIVERSITY

    Mr. Leonard. Thank you, Mr. Chairman.
    I want to thank Chairman McCaul and Ranking Member Thompson 
for inviting me to testify. My thanks also to Congressman 
Keating for his tireless work that has brought so much of the 
Boston Marathon set of issues to our attention.
    I am honored to appear today with three of the genuine 
heroes of that week--Commissioner Ed Davis and Chief Ed Deveau 
and Sergeant Pugliese--and also to be together with all five of 
the Watertown police officers, who gave such a great account of 
themselves in that gun battle in those 8 minutes when they were 
the best police force in the world. Each of them will tell you 
that he is not a hero, but I feel very strongly today and I 
think we all know that we are in the company of heroes.
    I am Dutch Leonard, the professor and co-director of the 
Program on Crisis Leadership at the Kennedy School of 
Government at Harvard. For the last year, Arnold Howitt, 
Christine Cole, Phil Heymann, and I have been doing research on 
the Boston Marathon bombing, supported in part by the 
International Centre for Sport Security.
    This was a team effort from the beginning, and all of my 
colleagues were huge contributors to this. One of my co-
authors, Christine Cole, is here with us today. The views I am 
presenting here are our own, not those of Harvard University or 
any other organization.
    Our work was presented in honor and in memory of those who 
lost their lives or suffered grievous injuries in the Boston 
Marathon bombing, and it is dedicated to all of those who 
helped.
    We focused on the issues of command and coordination. 
Others on our team are examining issues, as the committee has, 
of pre-event intelligence. Our report, entitled ``Why was 
Boston Strong?'', was released last week. The title refers to 
the local description, already referenced here, ``Boston 
Strong,'' of the resilience shown by first responders and by 
survivors and by the wider community during that week.
    My first message to the committee is about the first-
responder part of ``Boston Strong.'' Incident command works. 
The National Incident Management System that this committee 
mandated in the Homeland Security Act of 2002, Section 502, 
Part 5, is starting to work.
    Before NIMS, first responders worked without an effective 
multi-agency doctrine of how to combine in incident management. 
Too many times, we watched while vitally-needed capabilities 
were not effectively deployed but instead were idled by a lack 
of ability to coordinate and execute across agencies, 
jurisdictional boundaries, and levels of government. NIMS is 
now starting to work, and ``Boston Strong'' is a good 
illustration of what can be achieved. We believe that the 
response in Boston over the course of that week was as good as 
one could reasonably have hoped.
    So why were people and organizations able to be so 
effective? We found three answers.
    First, because senior commanders, including Ed Davis and Ed 
Deveau, were able to come rapidly together to form an effective 
joint command and coordination structure.
    Second, that was not due to chance. It resulted from 
thousands of hours of joint planning, exercises, and 
operations, combining numerous agencies over many years in the 
planning for and production of fixed events, some of it funded 
through grants from the Homeland Security Department.
    Third, other communities can do this too. Any community can 
engage in joint planning and execution for any major fixed 
event. Paying your dues on good days builds the infrastructure 
of interagency familiarity, respect, and trust and has an 
immediate payoff. If a bad day ever comes, as it did in Boston, 
that infrastructure is literally a life-saver.
    Our research also suggested several areas where further 
work needs to be done, but if we had to choose just one thing 
to improve, it would be to add at the tactical level an 
effective doctrine for what we call micro-command, the ability 
of people quickly to come together in an organized way. That 
would be in parallel to the National Incident Management System 
doctrine of macro-command, which allows the senior people to 
come together at the strategic level.
    My second message today to the committee is about the 
community part of resistance to terrorism, which is again on 
display this year as my daughter and Chief Deveau and thousands 
of others train to run in this year's marathon.
    ``Boston Strong'' encompasses what everyone did and does to 
stand tall and proud in the face of two murderous thugs with 
terrorist intent. ``Boston Strong'' is not a form of hubris or 
arrogance or naivete. It is a form of pride and defiance and 
resilience.
    Terrorists, in the end, are few and weak. They could never 
defeat us, but we could voluntarily surrender to them, and we 
must not. If we cower in fear, if we abandon our commitment to 
a free and open society, then we do their work for them. We 
cannot defend the American way of life, as these five officers 
did that night, by surrendering it.
    Preserve, protect, uphold, and defend. ``Boston Strong'' 
affirms the oath of office. ``Boston Strong'' says that we will 
defend the American way of life by continuing to participate in 
it. The community part of ``Boston Strong'' is a pretty good 
place to start in thinking about what resilience actually looks 
like.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Leonard follows:]
           Prepared Statement of Herman B. ``Dutch'' Leonard
                             April 9, 2014
    I would like to thank Chairman McCaul and Ranking Member Thompson 
for inviting me to testify today, as well as Congressman Keating of 
Massachusetts for the tireless work he has done to advance 
understanding of the events surrounding the Boston Marathon bombing 
that took place during the week of April 15, 2013.
    I would also like to say that it is an honor for me to appear on 
this panel today with three of the genuine heroes of that week--
Commissioner Ed Davis, Chief Ed Deveau, and Sgt. Jeff Pugliesi. One of 
the privileges of doing the research we have been carrying out is that 
we have regularly been in the presence of heroes--as I am again, and 
indeed as we all are today.
    My name is Herman Leonard, known to my friends as ``Dutch.'' I am 
the Baker Professor of Public Management at the Kennedy School of 
Government at Harvard University, where I am also faculty co-director 
of the Program on Crisis Leadership. I am also the Snider Family 
Professor of Business Administration and faculty co-chair of the Social 
Enterprise Initiative at Harvard Business School.
    Over the course of the last year, since the bombs exploded at the 
finish line of the Boston Marathon, I have been working together with 
Arnold Howitt, who is executive director of the Ash Center for 
Democratic Governance and faculty co-director of the Program on Crisis 
Leadership, and Christine Cole, who is executive director of Harvard's 
Program on Criminal Justice Policy and Management, both at the Kennedy 
School, and with Professor Phillip Heymann of Harvard Law School to 
understand the sources of the strengths and weaknesses of the response 
to the marathon bombing. Our work was supported in part by the 
International Centre for Sport Security. In providing this testimony 
today, I am appearing as a representative of our research team; the 
views I am presenting here are our own, and not those of Harvard 
University or any other organization. This was a team effort, and while 
I'm providing the testimony today this work is the product of many 
hands. (Any errors made here, however, are mine.)
    Our work was presented in honor and memory of those who lost their 
lives or suffered grievous injuries in the Boston Marathon bombing. It 
is dedicated to all of those who helped.
    Our work focused on the issues of command within and coordination 
among the agencies and organizations involved in the response. Events 
like the Marathon bombing create a surge of demands and thereby create 
the need for sudden teams--groups of individuals and organizations, 
thrown together by circumstance even though they may not have worked 
together before, who must, in order to produce the best possible 
overall response, work effectively in tandem under conditions of 
uncertainty and stress in a rapidly-evolving situation. Our work 
concerns the response that began when the bombs exploded. Since we are 
seeking to understand and explain the quality of that response, we also 
focus on the extensive efforts made in advance to create the conditions 
that enabled it. Another part of our research team is examining some of 
the issues about pre-event intelligence; that work is not yet complete, 
and lies beyond the scope of the report I'm describing today.
    We conducted a series of extended interviews, mainly with senior 
command officials in the major organizations involved in the response 
to the bombing. We also drew extensively on public statements and media 
descriptions of the events. Three weeks ago, we convened an ``expert 
dialogue,'' gathering about 100 people, including many of the 
principals we had interviewed and other participants in the events of 
that terrible week, together with senior emergency management officials 
and academics from around the United States and from abroad. We spent 
an intensive day discussing the events and our proposed 
recommendations.
    Our report, entitled ``WHY was Boston Strong?,'' was released last 
week. Our title references the local description--``Boston Strong''--of 
the full spectrum phenomenon of response and resistance and resilience 
shown by first responders and by survivors and by the wider community 
during that week and since.
    I appreciate this opportunity to discuss some of the findings of 
our research with you.
    I have two simple messages for you today.
    The first message is about the first responder part of Boston 
Strong that was on display last April.
    That message is this: It works! Incident command works! When you 
build it in advance and use it in the moment, incident command is 
effective. The National Incident Management System is starting to work.
    It has been a long time in coming and it is long overdue--but we've 
made a lot of progress Nationally, and the events in Boston last year 
put that vividly on display.
    For something like 50 years, starting in the 1960s and continuing 
with greater energy after a devastating fire in California in 1970, 
people of goodwill in emergency management sought to develop and 
promulgate an effective, unified, coherent doctrine of incident 
management so that agencies and organizations that find themselves 
having to work together on terrible and dark days can efficiently and 
smoothly combine their capabilities and resources. The central purpose 
of having a single, unified approach is to enable a sudden team to 
produce the best performance reasonably possible given the nature of 
the challenge and the capacities that they have available. Too many 
times we have watched while vitally needed and clearly existing 
capabilities were not marshaled or effectively deployed--but instead 
were idled by a lack of ability to organize, coordinate, and execute 
across agencies, jurisdictional boundaries, and levels of government.
    Finally, Congress--through the House Select Committee on Homeland 
Security, the original inception of this committee, in Part 5 of 
Section 502 of Public Law 107-296, the Homeland Security Act of 2002--
mandated that the Secretary of Homeland Security build ``a 
comprehensive national incident management system with Federal, State, 
and local government personnel, agencies, and authorities, to respond 
to . . . attacks and disasters.'' In 2004, the Department of Homeland 
Security duly issued instructions to those it could command directly 
(and created incentives for those it could not) to organize themselves 
for emergency response purposes in compliance with the structures and 
precepts and procedures of that system. FEMA has since worked to 
develop the system further and to help Federal and other agencies 
implement the structures, procedures, and training associated with 
making this doctrine a practical reality.
    This mandate did not immediately succeed in enhancing performance 
in multi-agency response to crisis events. In 2006, I gave testimony 
before the Senate Homeland Security Committee about Hurricane Katrina; 
incident management in the crucial early days of that response had been 
only sporadically applied and while it had proved helpful in the areas 
where it was used effectively it was clear that we were still a long 
way from having a fully operational National Incident Management System 
that worked smoothly across agencies of all types and all levels of 
government and all jurisdictions.
    My first message to you today is that it is now working far better. 
Boston Strong is a good illustration of what can be--and, in Boston and 
in other communities where significant efforts have been made, has 
been--achieved. There is more to do, as I will suggest--but the first 
and most important thing to note is that for those communities that 
make the effort, creating an integrated incident command process that 
will work in the moment is a goal that is demonstratedly within reach.
    There were some quite remarkably effective elements of the response 
in the aftermath of the bombing in Boston. As an example, the bombs 
caused literally dozens of fatal injuries, but, mercifully, there were 
only three fatalities on that terrible day. All of the seriously 
injured people were removed from the scene within 22 minutes. Every 
person who left the scene alive is alive today. The scene was rapidly 
secured and swept for additional explosive devices. It was then secured 
as a crime scene, collaboratively, using FBI and local and State 
assets, and the investigation was launched. Video from private and 
public surveillance cameras was quickly collected, additional 
photographic evidence (mainly from media and bystanders who volunteered 
their photographs and videos) was obtained, and an exhausting search 
through the video and photographic evidence began. Meanwhile, the 
public was informed by individual agencies and through a series of 
organized press conferences.
    Taken together, that seems like a very good performance. We can all 
point to elements where it could be further improved. But the standard 
can't be an unrealistic expectation of perfection. Our question has to 
be this: Did the response accomplish what could reasonably have been 
expected, given the intrinsic nature of the event itself--the surprise, 
the physical and emotional shock, and the inevitable chaos of the 
immediate aftermath. We believe that the response in Boston was as good 
as one could reasonably have hoped. This then begs explanation, and 
forms the basic question of our research: Why were people and 
organizations able to provide as effective a response as this was? What 
were the strengths of that response, and what enabled them? And where 
were the weaknesses--and what can we do to further minimize them? These 
were the questions at the heart of our research.
    I want to emphasize three elements of our research findings about 
where these features of the response ``came from''--that is, what 
caused or created them:

    First, the core underlying reason for the effectiveness of the 
        response in the moment was the rapid formation of an effective 
        command and coordination structure that oversaw and directed 
        all elements of the response. Senior officials from a wide 
        range of agencies--Federal, State, local, and private--felt an 
        immediate need to find one another and join into a concerted 
        and unified command structure and were then able to do so 
        reasonably quickly.

    Second, none of that was due to chance--it resulted from literally 
        tens of thousands of hours of joint work, planning, exercises, 
        and operations combining numerous agencies over many years in 
        the planning for and production of fixed events ranging from 
        the Democratic National Convention in 2004 (an event that got 
        particularly attentive focus because it was the first National 
        political convention after 9/11) to the Boston Marathon to the 
        July 4 concert and fireworks on the Esplanade to Patriots and 
        Red Sox and Bruins and Celtics victory parades. Each of those 
        events provided an opportunity--and opportunity that was 
        taken--to practice the process of planning and doing things 
        together. This built knowledge of one another's assumptions and 
        priorities and procedures, fostering understanding and mutual 
        respect of individual and organizational competence and 
        capabilities across agencies. This was the infrastructure that 
        enabled command and coordination to be established quickly and 
        to function effectively after the bombs exploded.

    Third, others can do this, too. To be sure, some of the features 
        that contributed to the effectiveness of the response in Boston 
        were unique to Boston. Boston has eight Level I trauma centers, 
        for example, and by happenstance they are arrayed in every 
        direction around the area where the bombs went off, so the 
        injured could be transported in many different directions, 
        reducing congestion among emergency vehicles. Some other 
        elements were unique to the moment--for example, the fact that 
        the marathon takes place on a State holiday, when hospitals are 
        open and fully staffed, but are not doing elective surgery, 
        meant that dozens of operating rooms were immediately 
        available. A shift change was underway at the time of the 
        bombing, which increased availability of skilled hands when 
        they were needed. So there were elements of good fortune that 
        reduced the terrible consequences on that awful day. But most 
        of what made the response as effective as it was can be 
        undertaken by other communities as readily and as well as it 
        was by Boston. Any community can engage in joint planning 
        across its agencies for any major fixed event--from a high 
        school football victory parade to a Fourth of July celebration. 
        Any community can find opportunities to engage in joint 
        planning with other jurisdictions, and with other levels of 
        government--both Federal and State.

    On a good day, joint planning and practicing inter-agency 
        coordination--and carrying that out through an incident command 
        structure--is helpful in making events go more smoothly. Paying 
        your dues on the good days by building the infrastructure of 
        interagency familiarity, respect, knowledge, and trust thus has 
        an immediate pay-off--and if a bad day ever comes, that 
        infrastructure is literally a life-saver.

    The single most important lesson of our research is that routine 
and constant practice and use of incident command is one of the best 
investments a community can make in its present well-being and against 
any future dark day that might arise.
    That said, there are still some things about the command and 
coordination processes that need some additional work. Our research 
suggested three areas where further work needs to be done on the 
development and implementation of incident command:

    (1) Distinguishing between strategy/policy issues and tactical/
        operational issues.--In a crisis situation, some of the issues 
        raise policy questions that should be answered by elected 
        political leaders, while other issues are more tactical and 
        operational. Incident management is largely silent on the 
        establishment of processes and procedures for identifying and 
        separating these issues and getting appropriate resolution of 
        them. NIMS focuses almost exclusively on the resolution of 
        tactical issues and on organizing processes for carrying out 
        the indicated operations once the issues have been decided. 
        More attention needs to be devoted in the doctrine to making 
        this distinction, to developing training to help officials 
        practice the distinction, and to building an appropriate 
        structure for interaction between policy makers and operational 
        leaders. This interaction generally worked well in Boston, but 
        not because of the doctrine. In fact, Boston's experience may 
        provide some guidance about what the doctrine should say. For 
        example, the decision to issue a shelter-in-place request was 
        appropriately framed as a policy issue by operational 
        commanders and was put to political leaders for resolution, and 
        this may provide a good illustration of the kind of process of 
        issue identification and resolution that needs to be addressed 
        in the doctrine. It is imperative for NIMS to provide more 
        guidance about the process by which tactical commanders should 
        work in conjunction with an appropriate process for decision 
        making by elected leaders. Both have important but different 
        roles to play, and NIMS currently lacks systematic ways to help 
        these two groups each to stay within their own designated 
        ``lane.''

    (2) Helping senior operational commanders resist being pulled 
        unduly toward tactical decision making and away from advising 
        political leaders on strategic issues.--Related to the 
        challenge of distinguishing policy questions from tactical 
        issues, the natural flow of work in incident management 
        structures tends to exert a strong pull on the senior 
        commanders of operational agencies toward being involved in 
        tactical decision making--at precisely the moment when they are 
        also needed to help frame and provide advice to political 
        leaders about more strategic issues. Illustratively, during the 
        Monday afternoon discussions at the unified command at the 
        Westin Copley Hotel, the Governor asked everyone to put their 
        phones down. The phones represented the pull on the senior 
        operational leaders (by their subordinates) toward engagement 
        with the (many and important!) tactical issues; the Governor 
        wanted their attention to advise him on the (fewer, but even 
        more important!) strategic issues. The attention of senior 
        operational officials is a key resource for both tactical and 
        strategic issues, so we need to develop better doctrine and 
        associated training about how to focus and parse their 
        concentration.

    (3) Developing more effective processes for quickly establishing 
        ``micro-command'' at the tactical level.--While coordination, 
        cooperation, and command among the senior leadership of the 
        agencies involved was very strong during the week of April 15 
        in Boston, better doctrine and training need to be developed to 
        produce similar results when lower-level officials from 
        different agencies encounter one another in the midst of 
        tactical challenges--as occurred in Watertown in the early 
        morning hours of April 19 and then again later that evening. By 
        virtue of doctrine and years of joint planning and practice and 
        work on multi-agency events, the senior leaders of the relevant 
        organizations for the most part knew one another personally and 
        had knowledge of and confidence in each other's capabilities--
        and they were able rapidly to form unified commands, both on 
        Monday afternoon and again in Watertown in the early hours of 
        Friday morning. Individual police officers arriving from other 
        jurisdictions at the scene of the gunfight at Dexter and Laurel 
        Streets Watertown had none of those advantages to help them 
        form a coordinating structure. We need better doctrine, 
        procedures, training, and practice to aid in the more rapid 
        development of a command structure among people from different 
        agencies arriving more or less independently and not under a 
        pre-existing overarching command structure. We refer to this as 
        the problem of establishing ``micro-command,'' and dealing with 
        this requires that the doctrine that is now working well to 
        coordinate agencies at the senior level needs to be cascaded 
        downward so that it functions at any level where the agencies 
        may encounter one another.

    The problem of micro-command needs a bit of further explanation. 
The issue is illustrated by the difference between what happened within 
the Watertown Police Department (including both officers and 
dispatchers), on the one hand, and what happened with arriving officers 
from other jurisdictions, on the other, at the scene of the gunfight at 
Dexter and Laurel streets. Watertown officers were first on the scene; 
they knew each other, knew their command structure, were in direct 
radio contact with one another, recognized each other's voices, and had 
good situational awareness about where they were, where their 
assailants were, and what the street map around them looked like. As a 
result, they were able to coordinate their actions against their 
assailants and moved against them in a way that, considering the 
circumstances--they were being fired upon and having explosive devices 
thrown at them--seems to have been both coherent and largely effective. 
Their assailants arrived in Watertown armed with a semi-automatic 
handgun and enough ammunition to reload it at least once and with a 
collection of explosive devices; at the end of the confrontation with 
Watertown police, one was dead and though the other temporarily escaped 
and may still have been dangerous, he was no longer armed when he fled 
the scene. As a result of the ``micro-command'' structure they 
automatically brought with them to the scene by virtue of being from 
the same department, the Watertown Police Department officers engaged 
their assailants in an organized and effective way and coordinated well 
with the WPD dispatch team.
    Arriving officers from other jurisdictions, by contrast, did not 
know one another, did not know the surrounding area, did not have their 
own command structure present to help organize or guide them, and did 
not find nor did they immediately form a command structure that could 
help deploy them effectively. They were, in effect, forced to act on 
more or less uncoordinated individual initiative. To some extent, this 
is inevitable in the early moments of an intense and confusing 
engagement when people from different jurisdictions show up to help. 
And, to the credit of those present, micro-command was eventually 
established at the various sites in Watertown where significant police 
actions took place (of which there were several). In general, however, 
it required the arrival of very senior officers before the others 
present were able to recognize and to accept command. Some of these 
events involved crossfire situations that endangered fellow officers 
and nearby residents, so the need to develop an approach that will 
minimize such circumstances in the future is urgent.
    Let me now turn to my second message today, about the community 
part of resistance to terrorism that was on display last year in Boston 
and is on display this year as my daughter and Chief Deveau and 
thousands of others train to run in this year's marathon--and yet more 
thousands of others prepare to make the event both smooth and safe. It 
is about the community's part in ``Boston Strong''--the local 
description that encompasses what everyone from first responders to 
bystanders to community members did to stand tall and proud in the face 
of two murderous thugs with terrorist intent.
    Boston Strong is not a form of hubris or arrogance or naivete--but 
a form of pride and defiance and resilience.
    Terrorists are, in the end, few and weak--which is, of course, why 
they choose the methods they use. We are many, and large, and strong. 
We could never be defeated by them--but we could voluntarily surrender 
to them . . . and we must not. If we cower in fear, if we abandon our 
commitment to a free and open society, then we do their work for them. 
We cannot defend the American way of life--which, importantly, includes 
our liberties--by surrendering that way of life.
    In every generation since our predecessors stood on the Lexington 
Green and at Old North Bridge in my hometown of Concord, 
Massachusetts--indeed, since their predecessors came ashore at 
Jamestown and at Plymouth--men and women have fought and some have bled 
and some have died to defend the American way of life. In the last 
century and a half--until 9/11--nearly all of that took place on 
foreign soil, and the Americans defending our way of life were mostly 
men and women in uniform. In an age where terrorism is an occasional 
fact of modern life, some of the battlefields are, unfortunately, now 
in the homeland and so the ``soldiers'' in that conflict now sometimes 
include ordinary Americans going about their daily lives. Resilience--
psychological resilience by ordinary Americans in the face of the 
threat, and even in the face of casualties--therefore has to be seen as 
a core part of our defense strategy against terrorism.
    Preserve, protect, uphold, and defend--Boston Strong affirms the 
oath of office. Boston Strong says that we will defend the American way 
of life by continuing to participate in it.
    The community part of Boston Strong is a pretty good place to start 
in thinking about what resilience looks like--and perhaps about how to 
build it.
    Our full report contains more detail about the events and further 
discussion of the key implications and lessons about the challenges of 
organizing and operating command and coordination in events like this. 
For purposes of my testimony here, let me now enumerate more completely 
the main recommendations from our research:
                           strategic command
  <bullet> Senior leaders should participate in a unified command at 
        the strategic level and avoid being pulled back into making 
        tactical decisions and directly overseeing basic operations.--
        While some engagement with rapidly evolving tactical matters is 
        necessary, top commanders should concentrate on working with 
        their peers in other organizations to establish an integrated, 
        cross-agency, policy perspective that looks at the big picture 
        context and a longer time frame.
  <bullet> The management of intra-organizational, tactical matters 
        should be undertaken by the next tier of institutional leaders, 
        who should be carefully prepared in advance through training, 
        exercises, and actual experience to assume these 
        responsibilities during crises.
  <bullet> To help ensure leaders' strategic focus and opportunity for 
        effective coordination with peers, contingency plans for fixed 
        events like the marathon should provide for well-equipped, 
        secure facilities for top commanders to work together in the 
        event of an emergency.--This command post should be close to 
        but separate from the location of subordinates who manage 
        tactical operations.
  <bullet> Organizations must develop sufficient depth of leadership so 
        that they can rotate personnel regularly during extended 
        events; otherwise, they will inevitably falter from fatigue.--
        By Friday evening, many of the people managing the overall 
        event had been awake for 36 or more hours and, more generally, 
        had been sleep-deprived since Monday's bombing. Both they and 
        their deputies had been more than fully deployed throughout the 
        event, leaving no unused (rested) capacity in the system. 
        Failure to provide for sufficient downtime for senior officials 
        inevitably degrades their judgment, ability to comprehend 
        information, and performance of even normal tasks. Allowing for 
        regular rotation requires creating more personnel depth in 
        these leadership positions.
  <bullet> Senior leaders should not to be unduly exposed to the 
        enormous flow of raw information, lest their attention be 
        diverted from strategic issues and problems.--In an event with 
        24/7 news and social media saturation, there is an enormous 
        amount of information circulating at any given time, much of 
        which is misleading or wrong. This stream of data needs to be 
        filtered and organized for top-level leaders so they can 
        concentrate on interpretation and strategic issues.
                         tactical/local command
  <bullet> Response organizations must develop procedures and practices 
        to better control ``self-deployment'' by individual personnel 
        to the scene of emergency action.--Dangerous situations that 
        threatened both responders and bystanders developed at the 
        scene of the Thursday night shootout and Friday apprehension of 
        the second suspect in Watertown, in part because of an overload 
        of individual public safety officers operating as individuals 
        rather than in disciplined units.
  <bullet> Public safety organizations should develop improved 
        doctrine, better training, and practice through exercises to 
        ensure effective ``micro-command'' in crises.--While officers 
        typically look for command authority when operating at a scene 
        with groups from their own agencies, they are less likely to do 
        so when they have deployed as individuals and arrive at an 
        emergency site on their own. Except for situations when near-
        instantaneous action is required to preserve life, doctrine 
        should be developed and officers should be trained to look for 
        authority at a scene of mass action, even if command is taken 
        by someone from another organization.
  <bullet> Improved discipline and training is needed to control 
        weapons fire when public safety officers from many 
        organizations are present.--Control over fields of fire and 
        authorization to fire is another critical micro-command issue 
        in any rapidly-evolving, high-stress, emotion-laden event. It 
        is dramatically more complicated when a ``sudden team'' of 
        people from different agencies are thrown together under 
        circumstances where there is no pre-determined command 
        structure.
  <bullet> Improved protocols and control systems for parking emergency 
        vehicles at an actual or potential emergency site must be 
        developed and effectively communicated/emphasized to officers 
        by dispatchers and on-scene commanders during an event to 
        prevent obstruction of further movement that may be required.
  <bullet> In complex, multi-agency events, teams of responders in the 
        field should be structured to take advantage of both the local 
        knowledge of conditions that the ``home'' organization 
        possesses and the quantity and specialized resources that 
        outside reinforcements can bring.
                          public communication
  <bullet> Maintaining regular and open communication with the public--
        through traditional and social media--should be a high priority 
        for senior officials, even when confidential investigations are 
        on-going.--When accurate, frequent, official communications 
        were absent, news and social media filled the gap, sometimes 
        with speculation and misinformation. Development of protocols 
        for crisis communication, incorporating utilization of social 
        media, should be part of the planning for fixed events. This 
        should include improving practices for dispelling widely-
        disseminated, inaccurate information or rumors.
  <bullet> Systems for coordinating and communicating information to 
        families of individuals missing or injured in a crisis need to 
        be improved, perhaps including revision of HIPAA rules 
        governing the release of personal information about patients 
        receiving care during public safety emergencies.
                     preparation for future crises
  <bullet> Robust development, practice, exercise, and application of 
        incident management processes and skills (codified in the NIMS 
        system) greatly enhance the ability of emergency responders to 
        operate in complex, multi-organizational, cross-jurisdictional 
        crises.--The great value of common systems and the 
        understanding that these produce among responders who have 
        never previously met or worked together should not be under-
        estimated. They can literally be life-savers for responders and 
        others at a crisis scene.
  <bullet> ``Fixed'' or planned events can be effective platforms for 
        practicing incident management skills even when no emergency 
        occurs, and they are highly useful if emergency contingencies 
        materialize at a fixed event as happened at and after the 2013 
        Boston Marathon.--Skills honed at such events can also prepare 
        responders and response organizations to perform more 
        effectively even in ``no notice'' emergencies that may occur at 
        other times.
  <bullet> Because coordinating multiple agencies and disciplines will 
        be particularly difficult in ``no notice'' events, senior 
        commanders should:
    <bullet> Themselves form a unified command structure to make 
            decisions and implement them,
    <bullet> Identify a separate staging area to which deploying 
            individuals and organizations should report and await 
            before undertaking field operations,
    <bullet> Establish protocols for the formation of ``sudden'' teams 
            composed of individuals from different organizations that 
            may not have previously worked together.
  <bullet> Community resilience should be systematically developed and 
        celebrated.--In the face of the bombing, Boston showed 
        strength, resilience, even defiance--and these were key drivers 
        of the overall outcomes that is, of ``Boston Strong.'' These 
        qualities are latent in many communities in the United States 
        and elsewhere. Celebrating examples of community resilience--
        both local examples and from farther afield--may help to 
        cultivate a culture of confidence and self-reliance.
    These are the central lessons that we have drawn from this 
difficult experience--from which we, with others emerge with a 
combination of sorrow and pride and resolve.
    So let me close where I opened: I thank the committee for the 
opportunity to present the findings of our report, I commend the 
committee for its historic role in mandating the platform from which 
the first responder's part of Boston Strong sprang, and I offer the 
community part of Boston Strong as a positive model of the 
psychological resilience that is an essential part of the successful 
defense of the American way of life in a sometimes-threatening modern 
world.
    I look forward to your questions.

    Chairman McCaul. Thank you, Professor.
    Let me just say, we were all--on that day, we were all 
citizens of Boston that day. The way Boston, the people 
responded with resilience, with strength, was truly inspiring, 
I think, to the Nation. I am wearing my ``Boston Strong'' pin 
to show my support and solidarity, as well. So thank you for 
that.
    The Chairman now recognizes himself for 5 minutes.
    Commissioner Davis, welcome back.
    Mr. Davis. Thank you.
    Chairman McCaul. You know, it has been almost a year, as we 
come up on the anniversary. You know, they say a man's true 
character is tested in a time of crisis. Sir, your character 
really shined. You were a true leader. You were a calming 
influence for the Nation, a comforting influence for the 
Nation, in a very dangerous time of crisis. I can't think of a 
better man at a better time than you, sir.
    Mr. Davis. That is very kind of you. I had a great team, 
Mr. Chairman.
    Chairman McCaul. I know I speak for all of us on this 
committee to say how much respect not only we have but the 
Nation for your service and your dedication. You will be 
remembered for a very long time for that.
    You and I have talked quite a bit since that tragic day. 
Your response efforts were heroic and brought an end to these 
terrorists who were on their way to Times Square.
    Can you tell me, in terms of lessons learned--and, again, I 
don't want this to be a ``gotcha'' exercise. I never intended 
it to be that way. But I always think, when something like this 
happens, we can always analyze and evaluate and determine what, 
if anything, we can do better to make sure that this never 
happens again.
    Can you tell me, just personally, from your background and 
experience from this event and your law enforcement background, 
what are the real lessons learned from the Boston bombing?
    Mr. Davis. Well, Mr. Chairman, I would like to commend you 
for the work that you have done, Congressman Keating and all 
the Members of the committee that have reviewed this. I have 
taken a good, long look at the report that came out. I think 
that the recommendations that are broken down into four 
categories in the report are really the best steps to take to 
deal with any shortcomings that were identified.
    There is nothing in there that can't be accomplished fairly 
simply. Those recommendations will cause a more comprehensive 
and effective system to protect our Nation to be put in place, 
and I think that those should be followed.
    Chairman McCaul. Right, I appreciate that. I was, as I said 
in my opening statement, pleased to see that the FBI has begun 
to implement these recommendations, along with the Department 
of Homeland Security. That is oversight, I think, at its best. 
Thank you again for your service, sir.
    Chief Deveau, you and I have talked about the tragic events 
that day but also the acts of heroism on the part of you and 
your officers, Sergeant Pugliese, in taking down one of the 
biggest terror threats since 9/11.
    What I was interested and maybe surprised to find out was 
that, once he was taken down, you weren't even quite sure who 
this person was and then, after the fact, learned that he was 
indeed the Boston bomber.
    Can you tell me--and you and I talked about this. You know, 
always hindsight is 20/20. But would it make sense to include 
local police departments in the Boston community or in any 
community, when something like this happens, when a terrorist 
attack occurs, after the event occurs, to bring in the local 
police departments in the area for briefings and for 
participation with the Joint Terrorism Task Force?
    Chief Deveau. Thank you, Mr. Chairman.
    Yes, I do think so. I believe that--you know, Watertown is 
a 65-man department. You know, Boston has all the resources; 
the big cities have that. But Watertown kind of represents most 
police departments across the country. We have limited 
resources, and it doesn't make sense for us to have somebody at 
the JTTF on a full-time basis.
    But when something like this happens in my community or in 
any community across the country, we need to have access to 
that table and be brought into it, be updated, and play a role 
there.
    I think some of the recommendations that you are making in 
your report touch on that. We needed to have a seat right away, 
and there were obstacles that we had to do before we could. So 
I think there can be improvement. Your committee is helping to 
make that happen, so I appreciate it.
    Chairman McCaul. I appreciate your insight on that. I think 
that that is a potential future recommendation, that local 
police departments be brought into these crisis situations so 
you can possibly identify the suspect before rather than after 
the fact.
    But, again, I just want to commend you and Sergeant 
Pugliese and all the officers, the four behind you, for one of 
the biggest acts of heroism. You are correct; for 8\1/2\ 
minutes, you were the best police department in the world. I 
would still argue that you are a great police department. 
Thanks for your great leadership.
    Chief Deveau. Thank you, Mr. Chairman.
    Chairman McCaul. My time has expired.
    The Chairman now recognizes the Ranking Member, Ms. 
Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Commissioner Davis and Chief, following the September 11 
attacks, the Department of Homeland Security developed the 
National Incident Management System, NIMS, to improve the 
ability of first responders to coordinate multijurisdictional 
response efforts. How have Federal grants enabled response 
organizations to implement NIMS?
    Would reductions to or changes to the structure of our 
Federal Homeland Security grant programs, such as UASI, et 
cetera--you know, what the administration is suggesting is we 
clump everything together in an all-hazards thing and we have 
at it, versus the different programs that we have set up. Do 
you feel that the approach by the administration is correct? 
Would it harm you if we did it that way? Et cetera, et cetera.
    Mr. Davis. I can tell you from experience that the 
programs, as they are set up, have been very effective. Our 
ability to coordinate with other agencies, our ability to train 
on the NIMS system and to game it out on tabletops and in real-
life situations when we were dealing with the sports victories 
and things like that in Boston, that money all comes from our 
Homeland Security grants and UASI funding.
    The other thing that we have is the equipment that is 
necessary to respond to something like this. Before the UASI 
program, our equipment was antiquated and not up to the task. 
When we were called to service that day, we had exactly what we 
needed to go in and clear the neighborhoods and do the work 
that had to be done in Watertown to catch these guys.
    So I think the program as it exists works very well.
    Ms. Sanchez. Chief.
    Chief Deveau. I would agree with the commissioner's 
comments. You know, in Watertown, we don't get as much funding 
as Boston would, nor should we. But Watertown partners with 50 
communities that surround Boston, and----
    Ms. Sanchez. So you are in a UASI together, or----
    Chief Deveau. Yeah.
    Ms. Sanchez. Like, in my area, I have two UASI grant 
recipients, Santa Ana and Anaheim, California, two large 
cities. But they work through the localized police departments 
to make sure that everybody is buying things that everybody can 
interoperably use. You know, I don't need a SWAT thing, but if 
we need a SWAT situation, you got the right stuff over there.
    Is that the way that you do it with your 50 jurisdictions?
    Chief Deveau. Well, that is exactly right. It makes no 
sense for Watertown to buy SWAT equipment or a vehicle, but it 
makes all the sense for Watertown to partner with 50 cities and 
towns that surround Boston and team up. So, in my department, 
it doesn't make sense for me to have a SWAT team, but it makes 
all the sense in the world for us to have a 40-man SWAT team 
made of all those communities, to have a rapid response team, 
and to have the armored vehicle and the tactical equipment that 
we can respond.
    So Watertown was able to participate with our Law 
Enforcement Council, along with Boston and the State Police and 
the National Guard, and participate and be able to protect our 
own community. So those grants went a long way.
    The training that goes on, you know, you can never prepare 
for what happened in Watertown, but training makes police 
officers professional. Training, training, training--we need to 
do that to be able to perform when we are challenged like we 
were in Watertown.
    Ms. Sanchez. I think my police departments are very 
concerned about all of this being lumped into one line item and 
also reduced, by the way. Whenever we consolidate programs into 
one line item, we generally also reduce at the same time the 
amounts of money available, so that makes it difficult.
    Thank you, gentlemen.
    I also have a concern about--the Harvard white paper on 
Boston Marathon bombings identified communication to the public 
as an incredibly important issue. Particularly in the light of 
this 24-hour cycle, everybody is trying to put something up, 
all the rumors that go, all the things that fly, you know, and 
then get repeated and repeated, and America gets scared or is 
incensed or whatever goes on--social media, you know, things 
that we in the Congress face every day but, for a jurisdiction 
that all of a sudden has a real crisis on its hands, can be 
difficult.
    Can you tell me, what have you done? What did you learn 
from that experience? Have you set up different protocols of 
how you share information, what you say to the community, what 
you say to the public? How have you dealt with that? What are 
the lessons that we can learn from that?
    Mr. Davis. The Boston Police Department had a significant 
presence on social media prior to the event. I don't think you 
can have an event and then try to stand up a Twitter or a 
Facebook account. You really have to understand how that works.
    In the years before the April 15 bombing, we used Twitter 
and Facebook to get information out. We don't even do press 
releases anymore. We just post it on social media.
    Ms. Sanchez. Really?
    Mr. Davis. The press monitors our social media account.
    What is good about that is that, not only do we speak one-
way, you know, not only can we send information out to the 
public and to the media, but a dialogue exists on social media. 
So we are actually able to understand how people are----
    Ms. Sanchez. Reacting, thinking.
    Mr. Davis [continuing]. Reacting to what we are saying and 
whether we are getting the real message across that we wanted 
to get across.
    It is a very, very effective means of getting information 
out to people quickly and effectively in a crisis. There was no 
cell phone usage--the cell phones shut down at the marathon 
because of overuse.
    Ms. Sanchez. Yes, we saw that on 9/11 also.
    Mr. Davis. Exactly. So we were able to revert to social 
media and get messages out to people, for instance, who were 
trying to find loved ones after the event to tell them where to 
go and what to do.
    It is a very, very effective means of communicating with 
people and speaking back and forth to them. That dialogue is 
really critical.
    Ms. Sanchez. Commissioner, and I also want to hear from the 
chief if you will indulge me, Mr. Chairman, if the chief will, 
and then I have just a little follow-up question to what you 
said.
    Chief Deveau. I will be brief. I think the Boston Police 
Department did an incredible job about getting the news out and 
getting reliable information out. I think that when the media 
came in, there was so much misinformation and I think people 
relied on the Boston Police Department to get it straight on 
those 4 days.
    In Watertown, we had to notify our residents at 2 o'clock 
in the morning to shelter in place, and we had a communication 
system where we could put that telephone notification out 
encouraging people to shelter in place, notify their neighbors, 
and that worked as well.
    But Boston really assisted us as the manhunt went on all 
day long to make sure the residents in greater Boston were 
getting the right information through the social media.
    Ms. Sanchez. Just quickly, do you think that other 
agencies, other police departments, are as advanced as you are, 
Commissioner, and, for example, not even using the traditional 
media, but going and putting your press releases out?
    Mr. Davis. No, there are very few departments that do that. 
But I think it is becoming more and more of a realization among 
my colleagues and the major city chiefs that this is something 
that they should invest time in.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. I want it associate myself with the 
remarks with respect to the response training. I know that the 
fall before the bombing that Boston's first responders had an 
emergency response training exercise that was funded with 
Homeland Security grant dollars, and I know that made a big 
difference in saving lives that fateful day.
    Mr. Davis. There is no question.
    Chairman McCaul. With that, the Chairman now recognizes the 
gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Let me at the outset 
thank you, and Congressman Keating, for the outstanding work 
you have done on this report. The time and effort you put into 
it really represents to me the very best of what a committee 
should be doing, especially when we have such a topic as this, 
which can inflame emotions, where there can be distortions. The 
fact that the two of you worked so well together in bringing 
out this product I think is really a tribute to the two of you, 
and I thank you and I am proud to be on the committee with you.
    Commissioner Davis and Chief Deveau and Sergeant Pugliese, 
I want to commend you for your heroic efforts that week. 
Professor Leonard, I want you to know I bring the best wishes 
of the FDNY, Chief Pfeiffer in particular, who has worked with 
you over the years and thanks to you for all the assistance you 
have given to the FDNY.
    Commissioner Davis, when we are talking about what was done 
that week, first of all, and I am not just here to give tribute 
to you, I am a friend of yours, I have great admiration for 
you, but I think the calm and the confidence you projected was 
absolutely essential. But in addition to that, I thought the 
fact that within moments of the bombing happening, how you were 
able to call everything into place, securing the site, getting 
the ambulances, in other words, everything that had to be done 
was done. Chief Deveau, your men, the fact is they had no idea 
this was going to happen and you were within minutes involved 
in the gun fights for their lives and for the lives of the city 
of Boston. So that has to be a tribute to the training that 
went on.
    How much effort is put into the training every year? 
Because obviously you can prepare, but you can't prepare. You 
have to have as many contingencies as possible and I guess hope 
for the best and then when it happens, all of that can be put 
into good use.
    So, again, I would just ask the two of you, I guess, how 
much training goes on? In the course of a year, how much 
training would you put into trying to provide for contingencies 
like this?
    Chief Deveau. We try to train as much as we can all the 
time. I think some of the best training that my department got 
with the regional team that I explained about is working with 
Boston. Whenever those championship parades or the celebrations 
took place, even going back to the Democratic National 
Convention that was in Boston a number of years back, we always 
worked with them. So that is kind of almost if you will 
training in itself, that we go in there and help them. So we 
support them.
    But we train all the time. Our units train kind-of with 
Boston, with the State police, trying to do that. I think, you 
know, it kind-of looks like a sports team. A sports team 
practices, practices, practices to get it right on game day, 
and that is what we need to do. We need to train, train, train 
to make sure we are able to do that. Dollars are limited, it is 
hard to do, but I think we try to put it in the right ways, the 
money that we do get Federally. With Ed Davis' leadership I 
think we have done a great job in the greater Boston area in 
working together and having that work, and that unified command 
of everybody doing it that particular day was based on all the 
training that we have done with the cities and towns around 
Boston with Boston.
    Mr. Davis. So there was a very specific training that 
occurred in the year prior to the marathon where we put a 
Mumbai-style attack scenario together and we used UASI to fund 
a full day--actually it was a couple of days of training. We 
took over several different venues in the city and played out 
what would happen if there were multiple attacks on the city.
    That was the first time we had engaged the medical people 
into the training. So that was called Operation Urban Shield. 
It was very effective because it got the medical people lined 
up with us. When we went to the hospitals and had to take over 
some of the emergency rooms because there were potential 
suspects there, I think because we had done training with them 
before-hand, it went much more smoothly. That same year we had 
done a Homeland Security training that came in through DHS, so 
two huge trainings in addition to a continual process of 
training for our SWAT teams that happens routinely.
    Mr. King. Commissioner, if I could ask you, we have already 
gone over the issue of the information not being shared before 
the event and that has been discussed and is apparently is 
being addressed, but also coming from New York I was struck by 
the fact that Dzhokhar, when he was being interrogated in the 
hospital, that is when it came out about Times Square. But the 
NYPD and nobody in New York was told about that by the FBI.
    Now, at that time, no one knew that those two brothers were 
the only two involved. It could have been a conspiracy and 
there could have been others on their way to New York, and yet 
New York was not told about it, and Commissioner Kelly first 
learned about it 2 or 3 days later and he called me up on the 
phone asking why I didn't tell him. I told him I didn't know 
anything about it. I don't think anyone knew about it other 
than the FBI in Boston.
    Going toward the future, what is the protocol if you do 
find a possible, additional attack that is being planned? 
Should that police department be notified? It could have been 
Philadelphia, it could have been anyone along the Atlantic 
coast there.
    Mr. Davis. I really think that we may be holding this 
information too closely in the interests of prosecution or 
having justice be the only thing that we think about, because 
in addition to justice, there is the issue of public safety and 
allowing people to get systems in place if there is a wider 
conspiracy.
    So I really--you know, our system is so focused on close 
hold and maintaining all the evidence for the prosecution. That 
is certainly, you know, the right thing to do, but I think that 
singular focus must be tempered with the overall safety and 
security of the community.
    Mr. King. Because for all we knew at that moment there 
could have been another attack being planned in another city, 
New York, Philadelphia, Trenton, whatever.
    Mr. Davis. I understand Commissioner Kelly's concern.
    Mr. King. Thank you, commissioner and chief. Let me say 
about Chief Deveau, like others on the committee, I was up in 
Watertown to find out exactly what happened and not only did he 
give me a minute-by-minute briefing, but he stood in the 
pouring rain for an hour which was above and beyond the call of 
duty. Maybe you can get a line-of-duty disability for that.
    Thank you for coming. I thank all the witnesses. Yield 
back.
    Chairman McCaul. I thank the gentleman.
    The Chairman recognizes the gentleman from Massachusetts, 
Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to clarify for the record in Congressman 
Sanchez's statements that it was Dzhokhar Tsarnaev that is the 
bomber in Federal custody.
    Chairman McCaul. Without objection, so ordered.
    Mr. Keating. Thank you, Mr. Chairman.
    Like so many other people, I wondered what the motivations 
behind the attack were, how it came to be and how it could be 
prevented in the future. Because of that, it took me to Russia 
two times to try and get some information to see if there was a 
link between the North Caucasus region, Dagestan and Chechnya, 
and if there was any connection for the motivations of this. In 
the course of doing that, I learned that authorities here in 
the United States, the FBI and later the CIA, were given 
detailed information about Tamerlan Tsarnaev through Russian 
security services and pursuing this information back home I did 
encounter some frustration with our own Federal agencies in 
that regard.
    There is a real concern about information sharing across 
the board, but there is an obvious multiplier benefit in 
sharing information. In the testimony before this committee 
this year, we were told that there is roughly 800,000 local 
police that could be utilized in this effort, and there is 
about 14,000 FBI agents. One of the sensitivities behind the 
lack of information sharing, at least I found as a DA, is a 
concern that as you spread information even among law 
enforcement sources, there could be leaks, and there is that 
inhibition.
    I would like to ask all of you, to me in your jobs right 
now people's lives are in danger and you already hold very 
sensitive information that if that information were released in 
your own communities, that people could be in danger. So could 
you comment on how you have maintained that confidentiality 
every day, and how I think there is a greater risk in not 
sharing that information with local police authority?
    Mr. Davis. Well, since 9/11, police chiefs around the 
Nation have received Secret and Top Secret clearances so that 
they can be involved in the conversation around these issues, 
and the intent of that was to make sure that there was wider 
distribution, wider spreading of the type of information that 
would be helpful to Ed in Watertown and to myself when I was in 
Boston. So I think that the intent is really good and I think 
that people have recognized that that should be the way it 
works.
    But when you are dealing with such large organizations over 
a period of time, sustaining change is difficult. That elastic 
band tends to pop back to where it was. So besides having good 
intentions and having good policies, there has to be a constant 
testing of systems to make sure that they are, in fact, 
working, and I think that is where we need some work.
    Mr. Keating. Chief, did you have a comment?
    Chief Deveau. Yes, I would agree. I think depending on what 
the intelligence is, it needs to get down to our level. It is 
our officers that are on the street that are interacting, and 
it is a value added. There could be more information that they 
are not aware of that the officers behind me are aware of and 
we can share information. I think we have to continue to build 
that trust and move forward and use this as an example to get 
better.
    Mr. Keating. I had another question. During the whole 
course of this, this committee has tried to really have a 
continuum of what happened before with initial information, 
what happened during the attack, what happened afterwards, and 
I think this committee has done very well to fill in all those 
areas. There is an area that I still have questions about, and 
I want to learn about this, particularly former Commissioner 
Davis could be helpful in this regard, because there is an 
area, and I want to see procedurally what was going on, and I 
think we could do that without jeopardizing anything frankly at 
all.
    There was a 60 Minutes segment just recently that was 
broadcast nationally about the marathon bombing and the FBI's 
response that put into play for that and I learned for the 
first time in that segment that the images that ended up being 
the images of the suspects, those images were available on 
Wednesday. Furthermore, I recall on Wednesday there was a press 
conference that was announced for National audience, I believe 
at the Boston police station or wherever it was being held and 
then at the last minute, that was canceled.
    Now, could you shed light on what was the nature of that 
press conference being called, and why it was canceled and if 
there is some procedure in that period that took place or some 
steps to fill in that blank period I have?
    Mr. Davis. We did have the photographs on Wednesday and 
there was a press conference scheduled, but at that point in 
time, the FBI had taken jurisdiction of the case so they were 
making the decisions on when the press conferences would be or 
not. It was a desire among everyone at the table to be out 
front on this as often as possible, but at that particular 
juncture, I think there was a decision made somewhere above me 
that there would not be a press conference. But that was 
between the FBI and the Justice Department people.
    Mr. Keating. You don't know the reason behind that?
    Mr. Davis. I have no idea.
    Mr. Keating. Or what happened in that 24-hour stretch 
before that there was another press conference?
    Mr. Davis. Right.
    Mr. Keating. To me, and thank you for being that candid, to 
me that just goes to show one more time that maybe there should 
be more information sharing at all times during this too, 
because I would have thought whatever that period, whatever was 
going on during that period, frankly the Boston police should 
have known what was going on.
    I will just yield back my time, Mr. Chairman. I appreciate 
that.
    Chairman McCaul. Thank you, Mr. Keating.
    The Chairman recognizes Mr. King for the purposes of 
entering a question into the record.
    Mr. King. Professor Leonard, the FDNY through Chief 
Pfeiffer has just asked me if I would ask this question, if you 
could submit the answer in writing. It is important to them. 
They have worked on it with you.
    You mentioned the idea of micro-command as an issue that 
needs to be better addressed in the NIMS system. What exactly 
did you mean by that and why is it important? If you could 
submit a written answer to that I would be very appreciative. 
Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Pennsylvania, Mr. Meehan.
    Mr. Meehan. I thank you, Mr. Chairman, and I thank each and 
every one of your distinguished guests for being here today. 
Let me just say one thing, in addition to the way you responded 
in the past with all of your officers, I know, Sergeant, you 
were talking about, and Chief Deveau, you are going to run in 
this next marathon, and the idea that it is not just how we 
responded in the past but the resolve to demonstrate to those 
who want to create terror in our communities that it is not 
going to happen, and the idea that the nurses and the officers 
and others are going to run 22 miles in a marathon is a 
commitment in addition. So thank you for doing that.
    Also I want to touch on this thing that Peter mentioned 
because I think, and I appreciate the professor's focus on 
this, the concept of incident command was really a significant 
achievement. I know it is something that is practiced, but as a 
former prosecutor, I appreciate that while you were responding, 
Chief Davis, you were doing two things. The first and foremost 
you were responding to make sure that people who were injured 
were safely evacuated, and it was remarkable that within a half 
an hour, those people whose lives could have been lost were in 
trauma centers being taken care of. But at the same time, you 
were securing an incredible crime scene. That is the very 
substance of the information that becomes subsequently the 
evidence with chain of custody and other kinds of things that 
are necessary for the prosecution we are trying to protect. So 
I appreciate the concept of chain of command.
    But there really are two questions, and Peter asked one of 
them, and I would be interested in having the two chiefs and 
professor, if you have a moment. When you were making decisions 
and in that chain of command, and there were a couple of 
different kinds of things. There was a distinction between 
policy decisions and procedural decisions. That is where you 
get the command structure which includes those of you who know 
the policy or the procedures about how to secure a crime scene, 
how to keep a community safe, how to respond and put your 
officers in.
    But there is also questions. You made a determination to 
release the photographs of the two individuals. You made a 
determination to shut the city down for a period of time, to 
secure Watertown, a remarkably courageous political decision.
    If you can discuss how you distinguished between the two 
and how you worked with sometimes political officials that may 
not have the same sort of background. Then you were talking 
about, and, Professor, you focused on this micro, and that was 
these officers who were responding to the scene. They come, and 
the unit in Watertown knows each other, but in small 
communities, you know, it could be the next town over, Reading 
or Everett or somebody, the officers are coming in and they 
don't work with these guys. So how do you create a structure 
where people are rushing in to a scene and the concept of being 
able to create an effective response? I think we have got 
after-action assessments of those kind of things and they are 
all good lessons learned.
    So if you can talk about that policy piece, chiefs, and, 
professor, if you want to take a moment to talk about the issue 
of the micro, I think it would be helpful for all of us.
    Mr. Davis. The procedural piece, and these are very astute 
observations, Congressman, and I appreciate you asking these 
questions, the procedural piece was fairly much laid out for us 
through our practicing and through our dealing with homicides, 
some multiple homicides, that occur in the city day in and day 
out. So we are frequently called to the scene where people have 
been badly injured, multiple people have been shot. Our first 
responsibility is to save lives and get them out as quickly as 
possible and get them the medical attention that they need.
    But very quickly after that, and it happens very fluidly, 
the crime scene gets locked down. This particular crime scene 
was complex because there was a distinct possibility that there 
was a third device there. So we were not only locking the crime 
scene down to preserve evidence, but to preserve the lives of 
the first responders. We had everybody leave the scene, leave 
the field after we got a perimeter set up until the bomb squad 
could go in and do their work. But it becomes very methodical 
at that point in time.
    So in the 18 minutes it took us to clear the victims, very 
quickly after that, a process was put in place, EOD clearing 
and then evidence collection, and one of the first things we 
did was tell our technical people to start to collect 
videotape. That videotape played an important role down the 
road.
    But as for the policy decisions, Mayor Menino left the 
hospital and came to the scene at the command post. He was 
joined there by Governor Patrick. So our job as police 
officials, myself, the Colonel from the State police, Rick 
Deslauriers from the FBI, was to give the political officials 
enough information so that they could get information out to 
the public and calm fears, but also make decisions around big 
political issues like the closing down of the transit system.
    Our role was to be advisors. We advised. We told our 
elected officials exactly what we had. At the time that the 
decision was made to shut down the transit, there were a series 
of events that were playing out that gave people the idea that 
there could very well be a broader conspiracy with other people 
involved.
    So there were courageous decisions made, but it was based 
on the best information that we had. We provided that to the 
elected officials and they did their job.
    Mr. Meehan. Professor, my time is up, but maybe you can 
jump into that because you have an appreciation for both that 
aspect, the policy decisions, as well as the micro piece.
    Mr. Leonard. Congressman, like Commissioner Davis, I think 
you are focused on the most important question here. My message 
is, don't take incident management for granted. It is not an 
accident. It takes a lot of work to build and it is incredibly 
important.
    What is important about it is that it facilitates the 
command and coordination across multiple agencies. Inevitably, 
the capabilities we need for these big horrible messy events 
are going to be in multiple different agencies, and they should 
be. The challenge is how to bring those collectively and 
creatively together effectively in the moment and that is 
harder than it looks. It is not self-executing, and it is not a 
natural act for those agencies to do it. So it has to be 
practiced in advance.
    It has to be worked on and developed. You pointed out all 
three levels. So there is the political interface with the 
strategic operational. So the Governor and the Mayor 
interacting with Commissioner Davis, with Chief Deveau and 
other operational officials to figure out are we going to shut 
down the city? Are we going to--the release of the photographs 
is really a more tactical kind of issue. But that political 
issue is enormously important, and the National Incident 
Management System is silent on this question of how that is 
supposed to work. So that is an area where we need further 
work. That is the macro level of command and coordination.
    The micro level is what Sergeant Pugliese brought to the 
scene because he is naturally part of a system in which there 
is command, in which the officers know each other. That is in 
contrast to the dozens of other officers who showed up from 
many different departments at the same moment or a little bit 
thereafter, mostly after the gunfight was over at Dexter and 
Laurel. They didn't have a natural tactical command structure, 
and we need to work on that. That is what I mean by micro 
command.
    So we need to work on the continuing coordination and 
command at all different levels, remembering this is the most 
important asset, and it is not a natural thing to have happen 
by itself, and it requires enormous amounts of work and 
development and practice ahead of time. We can do this.
    But I think for me, the most important lesson of this whole 
experience is that any community can do this, but not every 
community has done this, and we need to keep at that. Because 
Boston is strong and the incident management on display in 
Boston shows what can be done, but we shouldn't assume that it 
is now universal. We need to keep working on that.
    So thank you for asking the question. It is an excellent 
question.
    Mr. Meehan. Well, before I yield back, I want to say it is 
frustrating as a Philadelphia fan to have to realize that you 
get all this practice because you have all these victory 
parades with Patriots and everybody else.
    Mr. Leonard. Win the Series and you can practice too.
    Chairman McCaul. The Chairman now recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Commissioner Davis and Chief Deveau, the administration is 
proposing to consolidate the Homeland Security programs 
including UASI and the State Homeland Security Grant Program 
into one pool. Based on the testimony heard here and some of 
the comments in Ranking Member Thompson's statement, quite a 
few of us are concerned about that prospect. Under the 
proposal, grantees would no longer be required to dedicate 25 
percent of their grant awards to law enforcement and terrorism 
prevention.
    Do you have concerns about the proposed consolidation in 
reference to those grants?
    Mr. Davis. Congressman, I do. I think that the program as 
it is set up is working very well. I am not briefed in on the 
exact idea on the change, but if it results in a reduction in 
overall money, I think it is problematic.
    Mr. Payne. Right. As Congresswoman Sanchez stated, 
sometimes in those consolidations, the amount of the dollars 
are drawn down as well, consolidated. So that is a grave 
concern to quite a few of us on this committee and throughout 
the Congress because we know how those UASI and those grant 
programs have been exceptional, especially in an area such as 
mine. I am from North New Jersey and I have the Port Authority, 
I have the port, the rail, the airport, so the UASI grant has 
been phenomenal for us in that area.
    Chief Deveau, would you like to make a statement in 
reference to that? Because it says it would no longer require 
them to dedicate 25 percent of those grants to law enforcement 
and terrorism prevention activities, and that is what our 
concern is, that money could be deviated for reasons other than 
those?
    Chief Deveau. Congressman, I agree with the Commissioner. I 
think the current system is working and I think Boston is an 
example of it working very well. I think it should stay in 
place.
    Mr. Payne. Okay. I will yield back in the interest of time.
    Chairman McCaul. Thank you. We certainly appreciate that. 
Thank you, Mr. Payne. The Chairman now recognizes Mr. Swalwell 
from California.
    Mr. Swalwell. Thank you, Chairman, and thank you to our 
witnesses for being here today. I also as my colleagues have 
noted stand with Boston and commend you for your work.
    Commissioner, you and I spoke before at this hearing and I 
pointed out that it was Urban Shield Training that your force 
had gone through, first in Alameda County, which I have the 
privilege of representing, but also an exercise that you held 
yourself.
    I wanted to bring to the witnesses' and the committee's 
attention that a year later, we still, I believe, face threats 
from terrorists, whether abroad or individuals in the United 
States, rogue actors who may be influenced by publications on 
the web or that they receive and are able to use materials that 
are readily available at different stores.
    I was disturbed to read and learn in the most recent 
edition of al-Qaeda's Arabian Peninsula publication Inspire 
there is a picture of a young person sitting in a tram, which 
is used at San Francisco's international airport, and the 
English translation with this person sitting in the tram says, 
``For how long will you live in tension. Instead of just 
sitting, having no solution, simply stand up, pack your tools 
of destruction, assemble your bomb ready for detonation.''
    This is one of the largest international airports in the 
world, certainly one of the largest on the West Coast, and 
thousands of passengers a day use the tram to connect from our 
BART system to the airport. I was wondering if that 
publication, in its most recent magazine, brings concern to 
you, Commissioner, about threats still existing.
    Mr. Davis. Congressman, it is good to see you again and it 
does bring concern to me. In the month after the April 15 
bombing Inspire magazine had a whole issue devoted to the 
Tsarnaev brothers.
    This kind of extremist propaganda on the internet, if it is 
not countered with something, does tend to create problems for 
us. So we actually are talking about this at the Kennedy School 
right now trying to get college students engaged in putting 
proper information out on the web to really fly in the face of 
what these extremists are putting out there as the truth.
    But it goes beyond that. When you see that type of a 
picture in there, when you read about the attacks on the 
infrastructure around the transformers in California that were 
sniped at, it is hard to figure what is real and what isn't 
real in this area. We need to be vigilant. It is clear that 
there is a threat and we need to really be aware of it and do 
everything we can as a Nation to stop it from happening.
    Mr. Swalwell. Commissioner, knowing that, at least in this 
most recent publication that the San Francisco area is depicted 
in this al-Qaeda publication, what do you think that would mean 
for local law enforcement and Federal law enforcement and what 
do you think they would need to do to coordinate efforts with 
the resources we provided or resources that you think may, in 
the future, need to provided?
    Mr. Davis. Well, the great thing about our country, 
Congressman, is that each of the police departments has that 
responsibility and I am sure the officials in San Francisco are 
looking very closely at this threat. But you just need to be 
vigilant. That is clearly what needs to happen. I am sure there 
are a series of inquiries that are occurring around this and 
what can be done to tighten up the system. That would just make 
a lot of sense.
    Mr. Swalwell. Just to follow up on Mr. Payne's, my 
colleague from New Jersey's questioning, is it your position, 
Commissioner, that you would prefer a grant system through 
Homeland Security that is not consolidated, as is being 
proposed? Because as you know, Urban Shield and other exercises 
are funded through UASI, a specific grant, and that could be 
threatened should consolidation take place.
    Mr. Davis. Well, make no mistake, the UASI program works 
because it goes right to the cities, and the problem is it gets 
watered down when it gets diverted to the State. So, yes, I 
think that that is my concern.
    Mr. Swalwell. Thank you, Commissioner.
    I yield back the balance of my time.
    Chairman McCaul. The Chairman recognizes Ms. Clarke from 
New York.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I thank 
our witnesses for bringing their experience to bear as we sort 
of reflect on the response in light of the Boston bombings.
    I was a New Yorker, I am a New Yorker and was a member of 
the New York City Council during the 9/11 event and had 
jurisdiction in the Council over the rebuilding of the FDNY. So 
my question really goes to how well we have institutionalized 
NIMS and my first question goes to Professor Leonard.
    In your report you mentioned the response agencies should 
develop procedures and practices to better control self-
deployment, and that is something that we New Yorkers were 
keenly aware of in the 9/11 event. Can you provide some best 
practices for the types of procedures and how do you suppose 
that self-deployment tactics may be warranted in certain 
situations to prevent immediately threats of death and 
destruction. How do we strike that balance? Is there a 
necessity to sort of create some space in the NIMS protocol to 
address that?
    Mr. Leonard. Thank you, Congresswoman, I think that 
question goes exactly to the issue that we were trying to raise 
in the report.
    Self-deployment did happen in Watertown. There was also a 
lot of dispatched--many officers from many other areas were 
told that they should go. But when they got there, that didn't 
mean that they had any natural command structure to join in 
Watertown. So the Watertown Police Department is very organized 
in its response.
    I think to some extent, self-deployment is inevitable in 
some of these circumstances, and it is also not necessarily a 
bad thing. So it is not that we are trying to prevent that. The 
question is: In the presence of self-deployment, when have you 
a bunch of people from different agencies all arriving in a 
confused situation, arriving in sequence, because they don't 
all get there at the same moment, what should they do? We don't 
have a very good doctrine about that.
    We have lots of doctrine about how you can organize at the 
senior level, and the senior officials who arrived did that. 
They arrived in Watertown in the middle of night. Chief Deveau 
found Commissioner Davis and several others and they 
immediately began to form a command structure at the Watertown 
Mall.
    At the senior level that is all working. It is at the 
tactical level that we don't really have a doctrine, we don't 
have training. We can't expect those officers to have known 
each other before, but we might be able to develop some 
protocols for how they could combine so that we get something a 
little bit more organized. The referenced standard for this is 
not that they should be able to be like a college drill team in 
a half-time show, but maybe we could provide some doctrine so 
they could, through training and knowing how to use those 
protocols, they could establish a somewhat more organized 
response somewhat more quickly.
    In Watertown, senior police officials on some of those 
incidence scenes were able to eventually get things organized, 
but it took a little longer than we might like and I think we 
could develop protocols that would help people to do that 
faster.
    Ms. Clarke. Chief Deveau, from your experience, what would 
you take from your experience as to how we can best manage just 
the inclination of law enforcement and our first responders to 
create--you know, there is an inclination. People are just 
going to come knowing what it means to their jurisdiction, 
their town, their people, their families. What would you say 
would be something that we could move closer to creating to 
manage a circumstance like that?
    Chief Deveau. Thank you, Congresswoman. I think, first of 
all, that you mentioned NIMS and I think NIMS has worked. I 
mean, the unified command that we had in Watertown worked very 
well. So, as has been pointed out, at the command level, it 
worked because we have all been together. Ed Davis and I have 
known each other for about 15 years. So when he came walking 
down that back street in Watertown in the middle of the night 
we ended up being shoulder-to-shoulder for the next 18 hours 
and there was complete trust between us. As the other police 
commissioners showed up, Colonel Alben from the State police 
and everybody like that.
    I think there is a little bit of a disconnect when you get 
down to another level, when other departments start to show up 
from various cities and towns. We don't train currently for 
them to start working together. I think we have to go back and 
look at that in our academies that when there is somebody of 
leadership, there is a sergeant or lieutenant on the street, 
regardless of what town or city he is from, he or she, if they 
are the highest-ranking person in that area, then they have to 
have the knowledge and the ability to take control.
    We really don't do that well now, and I think it is one of 
the lessons or takeaways that I see in a lot of people that 
came to Watertown that we need to do a better job in self-
deployment. We needed those officers, but we needed to work a 
little bit quicker together and better together.
    Ms. Clarke. Mr. Davis, did you want to add anything to 
that?
    Mr. Davis. Just briefly, Congresswoman. I think that Ed is 
correct that at the micro level, Dutch's observations are 
exactly right. More work needs to be done there. We changed our 
doctrine after Columbine. Our protocols before Columbine were 
to secure the area and wait for the SWAT team to arrive. 
Columbine taught us that we don't have that luxury anymore. So 
our officers are now trained to put together a contact team and 
to go in and address the threat.
    What we haven't done is come to the realization that that 
contact team may comprise officers from several different 
agencies simply because when the call goes out, everybody 
responds. So how that team is structured and who is in charge 
of that team, that is sort of the nuts and bolts of this, I 
think.
    Ms. Clarke. I thank you gentlemen and yield back, Mr. 
Chairman.
    Chairman McCaul. Thank you.
    The Chairman recognizes Mr. Duncan.
    Mr. Duncan. I thank the Chairman for the committee hearing, 
for the report and the excellent work the committee did on 
that. I will say that I appreciate you bringing up a little 
moment of silence for the Fort Hood shooting, and South 
Carolina stands with Texas, just as we stood with Boston last 
year.
    I will say for the record that the Red Sox are my AL team. 
I am a Braves and Nats fan, but as Mr. Keating and I talk about 
from time to time, I do like the Sox,
    One thing, after reading the report, Mr. Chairman, it kept 
coming back to me the term ``stovepiping'' and the failure of 
sharing information across so many lines that came out after 9/
11 and how glaring that is today. The report points out that 
the information was there if the dots were connected, if the 
information was shared. I remember the testimony from 
Commissioner Davis last year about if the JTTF, your officers 
had been informed and would have had the ability to do a little 
more research, maybe this tragedy would have been prevented.
    So we hear a lot in this committee about lessons learned. 
Well, doggone it, I am tired of just learning the lessons. We 
have got to start applying those lessons. I mean, if we will do 
away with the stovepiping, as a government, as agencies like 
the FBI or components of DHS are willing to admit that they are 
not a fiefdom and they can't just control that information and 
they need to realize they can't be everywhere, nor do we want 
law enforcement to be everywhere, but if they will rely on the 
Boston police, the Watertown police, the elements in my State, 
whether it is the county sheriffs or local city police or 
whether it is the State law enforcement division, if that 
information can be more readily shared, I believe we could 
avert more tragedies.
    So, Mr. Chairman, I don't want to sit here a year from now 
or 2 years from now and have this same conversation about we 
had all the information, we failed to connect the dots and we 
failed to let the folks that are closer to the situation let 
them know about the potential threats, because Government is 
large and Government is cumbersome in its response to a lot of 
things. Where the flexibility and true ability lies is on the 
ground with the guys that can actually ask the questions of the 
people in the local supermarkets or the churches or the 
community clubs or the neighborhoods. So I will get off that 
rant.
    But I will say although there unquestionably has been 
significant progress in 13 years since 9/11 on the issues of 
the barriers, the walls, the stovepiping and the things that 
are inhibiting information sharing, full partnership is 
necessary.
    So Commissioner Davis, I know you are not in your role as 
you were this time last year, but from your perspective could 
you share with the committee why you believe these barriers 
remain or if they do remain? Or maybe I am off base on that. I 
would love to hear your perspective.
    Mr. Davis. I think we have come a long way. I think 
Director Comey has done a tremendous job. He said all the right 
things and done all right things since he has become the new 
director to address these issues. I had a conversation with 
Chairman McCaul last night. It appears as though we are moving 
in the right direction.
    But the recommendations that this committee has come up 
with are exactly the way we should be going to make this a more 
comprehensive system. But if those recommendations aren't put 
into a Federal code somewhere, they are simply that, 
recommendations. So if the Congress in its wisdom sees these 
things as good things, then it should be codified so that the 
system has to operate that way. Police agencies at every level 
follow the law, and if that is the law, that is what they will 
do. So that rubber band snapping back that we talked about a 
little earlier, it makes it impossible to do that.
    The other thing I want to mention is this is a story of 
numbers. If there are less than 20,000 Federal agents, FBI 
agents, working on the issue of terrorism, and there are 
600,000 local police officers, we are a force multiplier. That 
has to be a recognition on the part of all agencies that if we 
are going to have a comprehensive--I have had the ability to 
work in the United Kingdom and other police agencies in other 
countries where there is a system from top to bottom, and that 
really should be our model so that everybody is working 
together and everybody recognizes this isn't my ball, it 
basically is everybody's responsibility.
    Mr. Duncan. Let me just ask you, wasn't that the original 
purpose of the JTTF?
    Mr. Davis. Yes. I think the FBI came 90 yards down the 
field by establishing the JTTFs, but I think that there was 
some bureaucracy that prevented it to go over the goal line. I 
think we are right there right now. Those recommendations push 
it over the goal line.
    Mr. Duncan. Well, I tell you, I sit in the stands and watch 
a lot of football games. I am a former football player and 
enjoy the sport. I am glad you used that analogy. But one thing 
that frustrates me sitting in the stands is when I see the 
coach run the ball up the middle over and over and over and 
they are getting a yard, a yard-and-a-half, when maybe around 
the outside or throwing a pass, an end-around or something like 
that would be more effective. The fans around me are hollering 
at the coach, why are you running the ball up the middle again?
    So sitting in the stands here and looking at the JTTF 
concept, looking at the failures that are pointed out in this 
report, I hope the coach, so to speak, reads this. I hope we 
don't continue running the ball up the middle and getting that 
yard-and-a-half or getting down to the goal line and not being 
able to get across. We don't need 99 percent. Those are the 
lessons learned. One hundred percent gets us across the goal 
line. We learn from those lessons, we apply those lessons and 
we keep America safe.
    I hope they listen to you. I hope they listen to all you 
guys that were involved in this. I hope they will read the 
report, the ones that can make the decisions.
    Mr. Chairman, you are doing a great job in pointing this 
out, laying out the roadmap, and we have, I think, a 
responsibility and I think we are doing a good job of telling 
the respective agencies where we need to go, laying out the 
direction, but not just laying them out, actually cranking the 
car up and helping them proceed down that road. So I thank you 
for that.
    Thank you guys. God bless you. May God bless Massachusetts, 
the folks in Boston, all the victims and families, and may God 
continue to bless America because America was with Boston that 
day.
    With that, I will yield back.
    Chairman McCaul. Let me just close by saying, having worked 
with the Joint Terrorism Task Force, they do good work. It is a 
good model. It works 99 percent of the time. We have to be 
right 100 percent. In this particular case I think there were 
some things that fell through the cracks. But it is our job not 
to make people feel bad about that, but see how we can do 
better in the future so we don't have one of these events 
again.
    These one- to two-man operations are very, very difficult 
to detect and disrupt. That is the new evolution of both 
terrorism, of al-Qaeda, radical extremists, and that is what we 
need to stop.
    I do, as Commissioner Ed Davis said, I do want to commend 
the new FBI director, Comey, for ushering in, I think, a new 
era at the FBI, a model of cooperation. I have talked to him 
about the State and local cooperation. I think State and locals 
are a great force multiplier to an agency that is very 
resource-strapped. The locals know the streets. They are the 
eyes and ears on the ground and it makes perfect sense. I think 
it is indicative that one the first things that Director Comey 
did was to bring police chiefs to the table to enter into a 
memorandum of understanding with the police chiefs so that the 
police chiefs will actually know what their officers are doing 
on the JTTFs, because that wasn't happening in this case. That 
needs to change.
    I think Director Comey's emphasis of that, I know that his 
chief of staff is a big State and local fan and I look forward 
to, I think, a new era which I think will protect Americans 
ultimately and make America safer.
    Commissioner Davis, I think your recommendation to codify 
these recommendations into law is an excellent idea. Reports 
come out all the time, recommendations come out all the time, 
but if it is codified and it has the full force and effect of 
law, I think that is even stronger. So I commend you for that 
recommendation as well.
    Just to end, I also want to thank the staff on both sides 
of the aisle for all the work they put into this report, 
particularly Alan Carroll on my staff, who has worked day in 
and day out for a year with all the relevant agencies doing a 
great job.
    I want to thank Bill Keating, my dear friend from 
Massachusetts. This hit home to you. But working together with 
you in developing this report, traveling with you to Moscow to 
conduct interviews, you and I have been joined at the hip on 
this report and I think it is very significant.
    But our heart does go out to the Boston community. As we 
approach the anniversary of this bombing, this tragedy, I think 
it will be a time to remember. It will also be a time to heal. 
But it will also be a time of pride, for Boston is strong. So 
let me thank the witnesses----
    Mr. Keating. Mr. Chairman, if I could.
    Chairman McCaul. Yes, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I just want to thank the staff. I want to thank you. You 
have been to Boston. You traveled every footstep of the way on 
these scenes. I want to thank you for your personal 
involvement. Congressman King came down to Watertown. This is 
very important to our area. It is very important to our country 
going forward. I want to thank our brave law enforcement 
officers that are here for the work you have done once again. I 
will say that moving forward, we have been working in our 
office on legislation which we will share with everyone that 
will make sure that, you know, some of the positions change, so 
you could have someone that is more open to cooperation and 
then he could be replaced or she could be replaced by someone 
that doesn't share that same.
    So I think going forward it is important to get the laws or 
the codes changed so that we are not having another report that 
just sits on the shelf, because we can't afford to have this 
kind of tragedy, and if we can prevent one of them, all our 
work will be important.
    Again, I turn back and again, thank the Chairman for his 
personal involvement in this important issue.
    Chairman McCaul. Let me just close by thanking the 
officers. You are the true heroes to me and this committee. I 
also want to thank you for my Watertown police patch and pin. I 
will wear this very proudly.
    With that, this hearing is adjourned.
    [Whereupon, at 11:51 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Hon. Susan W. Brooks for Herman ``Dutch'' B. Leonard
    Question 1. Dr. Leonard, you noted in your testimony that, ``Others 
can do this too,'' referencing the ability to replicate Boston's 
effective response. In the aftermath of the Boston attacks, I held a 
hearing in my district to assess Central Indiana's ability to respond 
to a mass casualty event. I was pleased to hear in this hearing that, 
like in Boston, there has been extensive pre-event coordination between 
law enforcement, the fire service, emergency management, and the 
medical community. How can we most effectively share these best 
practices to help ensure that other jurisdictions are similarly well-
prepared?
    Question 2. Dr. Leonard, you mentioned in your written testimony 
that during a response effort it is imperative that first responders 
and Government officials maintain regular and open communication with 
the public and should utilize social media as a platform to reach their 
communities. I could not agree with you more. My subcommittee held two 
hearings last year that focused on how social media is transforming the 
way the Nation responds to and recovers from disasters. A recent survey 
showed that after a disaster 1 in 5 survivors contact first responders 
through social media. One of the challenges we discussed during these 
hearings was the amount of incorrect, misleading, and even malicious 
information that is posted on social media sites after a disaster. What 
best practices can we share with other first responders and Government 
officials to help them validate information posted on social media 
websites during a disaster?
    Answer. Thank you for the privilege of testifying about the 
findings of our research on the Boston Marathon bombings before your 
committee. I thought the hearing was well-designed and focused, and I 
hope it was helpful to you and your colleagues.
    I was honored to be a part of it and to appear with some of the 
true heroes of the hour--the other members of the witness panel, and 
the Watertown Police Department officers who responded in the early 
hours of April 19.
    In the aftermath of the hearing, you forwarded two written 
questions to me. I fear that the time for me to respond to them is now 
past, but hope that these responses may nonetheless still be of some 
use to you.
    The two questions were forwarded from Congresswoman Brooks. She 
asked, first, about how we can most effectively share the best 
practices of communities like Boston and her area of Central Indiana 
that have undertaken the necessary structural pre-work to build an 
architecture for coordinated response across agencies and jurisdictions 
under the National Incident Management System.
    This is an excellent and important question. As I observed in my 
testimony, the fact that multiple agencies and jurisdictions could 
quickly come together and coordinate their actions was crucial to the 
highly effective performance shown in Boston in the aftermath of the 
bombing. None of that ability was an accident; it came from years of 
hard work and practice, as well as from the efforts of DHS, mandated in 
the basic Homeland Security Act of 2002 (which originated in the House 
Select Committee that was the predecessor to the committee that you now 
chair). The best practice, as we outlined it, is for communities to 
take every available opportunity to practice mutual, coordinated 
planning and execution--from planning their Fourth of July celebration 
to handling local football games--by using the National Incident 
Management System as the basic planning and operational framework for 
every significant event in their area.
    Congresswoman Brooks' question goes to the issue of how we can get 
other communities to do this--since, as I observed, while every 
community could do it, not every community has done it. I can't give a 
fully satisfactory answer--but I would emphasize that one element of 
our strategy for spreading this practice is bringing greater attention 
(as we tried to do in our report) to why Boston was able to do as well 
as it did during that terrible week. These lessons need to be retold 
and repeated. We are taking every opportunity to speak with public 
safety officials, political leaders, and community groups about the 
importance of this kind of practice and of the building in advance of 
the infrastructure of cooperation. We hope that this finding is 
something that you and your committee can also help to promulgate.
    One device that has been utilized to encourage practicing 
coordination, and that I think should continue, is providing grants for 
planning and exercises on a multi-agency, multi-jurisdictional, 
``regional'' basis. The requirement, under DHS grant programs, to 
undertake joint exercises and to form joint plans has been a useful and 
effective push in the right direction.
    Congresswoman Brooks' second question refers to social media and 
inquires about the best practices for using and for verifying the 
information flowing through social media channels during crisis events. 
Once again, this is a very good question, with no simple answer. One 
important element is that the effort to utilize social media 
effectively should not begin at the time of the event; the 
infrastructure needs to be built well in advance. Public safety 
organizations need to build a trusted social media voice and populate 
it regularly during ordinary times, developing a collection of 
followers who will already be tuned in when a crisis moment breaks. The 
Boston Police Department had such an effort before the marathon bombing 
event, and many thousands turned to it in the moment; many say it was 
the most reliable and accurate source of information about what was 
known at any given time. This helped to damp down some of the less-
grounded posts that were circulating from other sources--and this could 
only be done during the event because the infrastructure had been built 
in advance.
    As Congresswoman Brooks observes, one of the great challenges of 
operating in an environment drenched in social media--as crisis events 
now are--is that many posts from many sources are difficult or 
impossible to verify. Most putative eyewitness statements are by actual 
eyewitnesses, and most contain at least some accurate data--but some 
are complete (and sometimes malicious) fabrications, and even actual 
eyewitnesses are often confused about what they saw, so even with the 
best of intentions they may be providing highly misleading 
characterizations. Even those who are trying their hardest to get and 
report accurate information are caught in the inevitable fog of war. 
The simple fact is that there is therefore no straightforward and 
definitive method for determining which pieces of ``information'' 
flowing through social media channels are accurate. In general, the 
best we can do is to seek confirmation for information that seems 
important, and to try to differentiate between confirmed/verified 
claims, on the one hand, and unverified posts, on the other. Again, 
having a pre-established trusted social media voice for a given agency 
with loyal followers who have faith in the intentions and competence of 
the organization is critically important. That voice must then be 
operated in a way that: (1) Allows it to differentiate as carefully as 
possible between verified and unverified information, and that (2) 
keeps pace with the flow of information in the event. If all the 
official voice can say is that there is no verified information, people 
will quickly turn to other social media channels. This means that we 
can neither entirely rely upon, nor entirely ignore, the flow of 
unverified information in social channels. This is an area where 
further research and development is needed, but I believe it will 
remain (and indeed will increasingly become) difficult to manage, and 
will require operational resources devoted to it in the moment. This 
may seem like a diversion of resources that are needed elsewhere, but 
managing perceptions and information during events needs to be seen as 
a substantive contribution--as much as providing physical assistance.
    I hope these observations are helpful to you and the Members of 
your committee. I would be happy to elaborate further on any of my 
testimony or any of what I have said here, if that would be of use to 
you.
    Once again, let me thank you for the privilege of appearing before 
your committee. If there is anything you think I can do that would help 
advance the important work you are doing, I hope you will not hesitate 
to let me know.

                                 <all>

</pre></body></html>
